<html>
<title> - [H.A.S.C. No. 114-115]THE FISCAL YEAR 2017 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE DEPARTMENT OF DEFENSE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


			[H.A.S.C. No. 114-115]
_____________________________________________________________________

                             HEARING

                               ON

		NATIONAL DEFENSE AUTHORIZATION ACT

			FOR FISCAL YEAR 2017

                              AND

		OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                           BEFORE THE

			COMMITTEE ON ARMED SERVICES

			HOUSE OF REPRESENTATIVES

		     ONE HUNDRED FOURTEENTH CONGRESS

        		    SECOND SESSION
                              _____________


			FULL COMMITTEE HEARING

                                   ON

			THE FISCAL YEAR 2017 NATIONAL

			DEFENSE AUTHORIZATION BUDGET

			REQUEST FROM THE DEPARTMENT

				OF DEFENSE

                              ________________

        			HEARING HELD

        		        MARCH 22, 2016

          
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
        
                             __________________
                             
                             
                    U.S. GOVERNMENT PUBLISHING OFFICE              
20-067                       WASHINGTON : 2017                    
          
______________________________________________________________________          
          
          
                      COMMITTEE ON ARMED SERVICES
                   
                   
                   One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                      William S. Johnson, Counsel
                         Britton Burkett, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     3
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Carter, Hon. Ashton B., Secretary of Defense, U.S. Department of 
  Defense; accompanied by Hon. Mike McCord, Under Secretary of 
  Defense (Comptroller) and Chief Financial Officer, U.S. 
  Department of Defense..........................................     4
Dunford, Gen Joseph F., Jr., USMC, Chairman, Joint Chiefs of 
  Staff..........................................................     9

                                APPENDIX

Prepared Statements:

    Carter, Hon. Ashton B........................................    67
    Dunford, Gen Joseph F., Jr...................................   104
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    65

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................   123

Questions Submitted by Members Post Hearing:

    Mr. Coffman..................................................   128
    Ms. Duckworth................................................   129
    Mr. Lamborn..................................................   127
    Ms. Speier...................................................   127
    Mr. Takai....................................................   129

 
THE FISCAL YEAR 2017 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM 
                       THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, March 22, 2016.
    The committee met, pursuant to call, at 10:00 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    The committee meets today to receive testimony from the 
Secretary of Defense and the Chairman of the Joint Chiefs of 
Staff on the national defense authorization budget request from 
the administration.
    Like last year, the committee has spent a number of weeks 
hearing from our military leaders, the Intelligence Community, 
and outside witnesses before asking the Secretary to testify on 
the current budget request. What we have heard over these weeks 
reaffirmed the fact that the U.S. faces a wider range of 
serious threats than at any time in our history.
    The Director of the Defense Intelligence Agency [DIA] told 
our committee that, quote: ``The world is far more complicated; 
it is far more destabilized; it is far more complex than at any 
time I have seen it.''
    Currently serving senior commanders have described the 
ability of the military we rely upon to face those threats as, 
quote, ``minimally adequate.'' Aviation units in the Marine 
Corps cannot meet training and mission requirements. With less 
than a third of Army forces at acceptable levels of readiness, 
the Army is not at a level that is appropriate for what the 
American people would expect to defend them. Those were quotes 
as well.
    Another is, less than half of the Air Force combat units 
are ready for a high-end fight. It is the smallest, oldest, and 
least-ready force across the full spectrum of operations in our 
history. Those snippets of testimony across the services is 
remarkably consistent, candid, and disturbing. Indeed, my own 
visits with service members recently leads me to suspect that 
even these assessments don't tell the whole story.
    We often discuss readiness, but it is a vague term without 
concrete meaning for a lot of Americans. Recently, I have heard 
firsthand from service members who have looked me in the eye 
and told of trying to cannibalize parts from a museum aircraft 
in order to get a current aircraft ready to fly an overseas 
mission; of getting aircraft that were sent to the boneyard in 
Arizona back and revitalized in order to fly missions; of 
pilots who were flying well below the minimum number of hours 
required for minimal proficiency and flying fewer training 
hours than those of adversaries that they were sent to meet.
    I have heard of not having enough senior enlisted people to 
train and supervise the younger ones, and those who remain 
working longer and longer hours. And I have even heard 
firsthand from service members who have to buy basic supplies 
like pins and cleaning supplies and paper towels out of their 
own pocket, because if they go through the military process, it 
will take 3 or 4 months, and for them, it is just not worth it. 
I expressed concern last week that there is a rise in class A 
mishaps, which may be another indicator of a readiness crisis.
    Last year, General Dempsey testified that the fiscal year 
2016 funding request was the lower, ragged edge that was 
necessary to execute the defense strategy and that we have no 
slack, no margin left for error or strategic surprise. Yet the 
budget request from the administration this year is $18 billion 
lower on meeting those basic requirement minimums, and it is 
less than the budget agreement of last December.
    It seems clear that the same strategy we assumed would have 
us out of Iraq and Afghanistan, where Russia would be a friend 
thanks to the reset, and where terrorism was confined to the JV 
[junior varsity] teams, does not continue to be valid. That is 
also the same strategy that has led us to cut troops, 
equipment, training, and bases.
    Both Congress and the administration are responsible for 
this state of affairs. Over the last 5 years, the President and 
Congress have cut over half a trillion dollars from defense, 
and these cuts come at a cost. It has increased risk that our 
troops will be killed or captured, that a mission will fail, or 
that we will lose a fight.
    What our hearings over these last few weeks have shown is 
that this risk is real, and there is evidence to prove it is 
growing. The military is strained to a breaking point. Our 
witnesses today are in a unique position to help our political 
leadership and the American people understand the state of 
affairs, and I would say we would all be derelict in our duty 
if we tried to sweep it under the rug.
    On a final note, this morning the news brought us, again, 
stories of tragedy in a terrorist attack in Europe. The 
administration's budget request asks for more money to fight 
ISIS [Islamic State of Iraq and Syria] in Iraq and Syria, and I 
think that is understandable and appropriate.
    What I do not understand is that the law required the 
administration provide Congress a written document laying out 
its strategy to fight ISIS. That document was due February 15, 
2016. We have received nothing, and there is no indication that 
anything is on the way.
    The world is growing more dangerous. We have cut our 
military too much, and I believe it is up to the political 
leadership in this country to take the action necessary to 
enable our service men and women to defend American lives and 
American interests. The men and women who serve and the Nation 
deserve better than we are now.
    I yield to the distinguished gentlelady of California, as 
the acting ranking member today, for any comments she would 
like to make.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    I ask unanimous consent that the ranking member's statement 
be entered into the record.
    The Chairman. Without objection.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 65.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Over the last several weeks, we have received 
testimony from combatant commanders, from our service chiefs, 
from service secretaries. And they all have given us their best 
military advice, and it could not be more clear: the threats, 
as the chairman has noted, we face are real and growing.
    Just this morning, attacks in Brussels claimed at least 26 
lives, and dozens were injured. Our hearts certainly go out to 
the Belgian people as they recover from this horrific act of 
violence.
    Secretary Carter, you have emphasized that the President's 
budget request centers on five key challenges: Deterring 
aggressive behavior on the part of a resurgent Russia and a 
rising China; containing the dangerous unpredictable North 
Korean regime; neutralizing Iran's malign influence; and 
defeating ISIL [Islamic State of Iraq and the Levant] and other 
manifestations of violent extremism.
    Unfortunately, in the midst of these challenges, we are 
searching for budget workarounds instead of fixing the 
underlying problem. The Department of Defense [DOD] needs 
fiscal certainty to reliably perform critical missions and to 
maintain lasting superiority.
    Secretary Carter, you have asserted that the fiscal year 
2017 shortfall risk can be mitigated but that DOD needs a 
comprehensive long-term budgetary solution. We must remember 
the devastating harms inflicted by sequestration in the Budget 
Control Act caps. Years of budgetary standoffs leading to 
numerous threatened government shutdowns, one actual government 
shutdown, and congressional overreliance on continuing 
resolutions have combined to produce debilitating fiscal 
uncertainty.
    Although it is unclear whether the House will pass a budget 
resolution this year, the resolution passed last week by the 
House Budget Committee raises more questions than it answers. 
The committee-passed resolution is nominally BBA [Bipartisan 
Budget Act] compliant, but it would offer a net increase of 
roughly $18 billion to the defense base budget. It would do so 
by assuming that $23 billion of overseas contingency 
operations--what we call OCO funding--would be used for base 
budget purposes, but it would not increase the BBA top line of 
$74 million for OCO funding.
    My first question is, which OCO beneficiary would end up 
paying the bill in this shuffle? Would the money come from the 
portion requested for DOD, that is, the warfighter? Would it 
come from the State Department, which also receives OCO funding 
to perform vital functions in contingency operations? Or would 
it come from both?
    Chairman Price's budget resolution also poses another open-
ended question. It appears to allow the chairman of the House 
Budget Committee to adjust OCO funding levels going forward on 
the basis of new information, which means that, at some point, 
supplemental OCO funding could be used to circumvent BBA 
funding levels.
    The DOD, the Congress, has to make hard choices, especially 
when it comes to balancing force modernization with the very, 
very critical need that the chairman addressed: to sustain 
readiness. Would these issues become harder or easier if near-
term OCO needs are supplemented by longer-term base budget 
requirements in fiscal year 2017? How would the DOD prioritize 
its needs if OCO funding levels are reduced within the BBA top 
line?
    And, most importantly, what poses the greatest risk to 
national security, providing funding for base budget 
requirements at the level requested by the President or 
providing funding for near-term OCO requirements at least 
initially at levels lower than requested? We need to carefully 
consider Chairman Price's proposal and every other potential 
adjustment to the defense budget as we work to build this 
year's defense authorization bill.
    We must also give the Department additional flexibility to 
reduce excess infrastructure and overhead, to phase out old 
platforms, and to adjust the healthcare and benefit structure. 
The President came to us with a budget that focuses on adapting 
to the threats that we face today and also one that follows the 
law by conforming to the Bipartisan Budget Act of 2015, 
including approximately $582.7 billion in discretionary budget 
authority for the Department of Defense. So, now, we must 
uphold our end of the deal in Congress.
    Thank you all for being here today. I look forward to your 
testimony.
    And thank you again, Mr. Chairman. I yield back.
    The Chairman. I thank the gentlelady.
    The committee is pleased to welcome today the Honorable 
Ashton B. Carter, the Secretary of Defense; General Joseph 
Dunford, the Chairman of the Joint Chiefs of Staff; as well as 
the Honorable Mike McCord, the Comptroller and Chief Financial 
Officer [CFO] of the Department.
    Gentlemen, again, welcome to the committee. Without 
objection, your full written statements will be made part of 
the record.
    And Mr. Secretary, you are recognized for any comments you 
would like to offer.

STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE, U.S. 
 DEPARTMENT OF DEFENSE; ACCOMPANIED BY HON. MIKE McCORD, UNDER 
SECRETARY OF DEFENSE (COMPTROLLER) AND CHIEF FINANCIAL OFFICER, 
                   U.S. DEPARTMENT OF DEFENSE

    Secretary Carter. Thank you very much, Chairman Thornberry.
    Congresswoman Davis, thank you.
    Thanks, all the members of the committee. Thank you for 
hosting me here today.
    I want to begin by condemning this morning's bombings in 
Belgium. Our thoughts and our prayers are with those affected 
by this tragedy, the victims, their families, and survivors. 
And in the face of these acts of terrorism, the United States 
stands in strong solidarity with our ally Belgium. We are 
continuing to monitor the situation, including to ensure that 
all U.S. personnel and citizens are accounted for. We also 
stand ready to provide assistance to our friends and allies in 
Europe, as necessary.
    Brussels is an international city that has been host to 
NATO [North Atlantic Treaty Organization] and to the European 
Union [EU] for decades. Together, we must and we will continue 
to do everything we can to protect our homelands and defeat 
terrorists wherever they threaten us. No attack--no attack--
will affect our resolve to accelerate the defeat of ISIL. I 
will have more to say about this later in the testimony.
    Thank you again for hosting me today and for steadfastly 
supporting DOD's men and women all over the world, military and 
civilian, who serve and defend us. I am pleased to be here with 
Chairman Dunford, Under Secretary McCord, to discuss President 
Obama's 2017 defense budget, which marks a major inflection 
point for the Department of Defense.
    As I will describe in detail, the threat from terrorism is 
one of the five challenges, as has been noted, that the United 
States now faces and will in the future. In this budget, we are 
taking the long view. We have to, because even as we fight 
today's fights, we must also be prepared for what might come 
10, 20, or 30 years down the road.
    Last fall's Bipartisan Budget Act gave us some much-needed 
stability after years of gridlock and turbulence. And I want to 
thank you and your colleagues for coming together to help pass 
it. That budget deal set the size of our budget, and with this 
degree of certainty, we focused on its shape, changing that 
shape in fundamental but carefully considered ways to adjust to 
a new strategic era and to seize opportunities for the future.
    Let me describe the strategic assessment that drove our 
budget decisions. First of all, it is evident that America is 
still today the world's foremost leader, partner, and 
underwriter of stability and security in every region of the 
world, as we have been since World War II. That is thanks in 
large part to the unequivocal strength of the U.S. military.
    And as we continue to fulfill this enduring role, it is 
also evident that we are entering a new strategic era. Today's 
security environment is dramatically different from the last 25 
years, requiring new ways of investing and operating. Five 
evolving strategic challenges--namely, Russia, China, North 
Korea, Iran, and terrorism--are now driving DOD's planning and 
budgeting, as reflected in this budget.
    I want to focus first on our ongoing fight against 
terrorism and especially ISIL, which as the attacks in Belgium 
today again remind us, we must and will deal a lasting defeat, 
most immediately in its parent tumor in Iraq and Syria but also 
where it is metastasizing, and all the while we are continuing 
to help protect our own homeland.
    Let me give you a quick snapshot of what we are doing to 
pressure and destroy ISIL's parent tumor in Iraq and Syria. In 
Iraq, with our support, the Iraqi Security Forces retook Ramadi 
and are now reclaiming further ground in Anbar Province and are 
simultaneously shifting the weight of their effort towards 
Mosul in the north.
    With our advice and assistance, Iraqi and Kurdish security 
forces have begun the shaping and isolation phase of the 
operation to collapse ISIL's control over Mosul. That was the 
mission Marine Staff Sergeant Louis Cardin was supporting when 
he gave his life over the weekend providing critical protection 
to Iraqi forces and coalition military advisers in northern 
Iraq. Our thoughts and prayers are with his family and with the 
other Marines injured in Saturday's rocket attack. Their 
sacrifice will not be forgotten, and our global coalition will 
complete the mission they were supporting.
    In Syria, capable and motivated local forces supported by 
the United States in our global coalition have retaken the east 
Syrian town of Shaddadi. This town served as an important 
logistical and financial hub for ISIL and a key intersection 
between its Syria and Iraq operations. In fact, Shaddadi was so 
important to ISIL that its so-called minister of war was 
involved in ISIL's defense of the town. We killed him while our 
local partners expelled ISIL from the town. In doing so, the 
coalition campaign severed the last major northern artery 
between Raqqa and Mosul and, therefore, between ISIL and Syria 
and ISIL and Iraq. And we are intent on further isolating and 
pressuring ISIL, including by cutting off its remaining lines 
of communication in southern Syria and into Turkey.
    In addition to local forces we are working with, 90 percent 
of our military and coalition partners from Europe, the Gulf, 
Asia, 26 countries in all, including, by the way, our ally 
Belgium, have committed to increase their contributions to help 
accelerate the defeat of ISIL.
    We have increased strikes on ISIL-held cash depots, oil 
revenues, and sites associated with its ambitions to develop 
and use chemical weapons. And we are addressing ISIL's 
metastases as well, having conducted targeted strikes against 
ISIL in Libya and Afghanistan. As we are accelerating our 
overall counter-ISIL campaign, we are backing it up with 
increased funding for 2017, as the chairman already noted, 
requesting 50 percent more than last year.
    Now, before I continue, I want to say a few words about 
Russia's role in this. Russia said it was coming into Syria to 
fight ISIL, but that is not what it did. Instead, their 
military has only prolonged the civil war, propped up Assad, 
and as of now, we haven't seen whether Russia has retained 
leverage over Assad to facilitate a diplomatic way forward, 
which is what the Syrian people need.
    One thing is clear, though: Russia's entry into Syria 
didn't impact our campaign against ISIL. Along with our 
coalition partners, we are intensifying our campaign against 
ISIL in both Iraq and Syria and will continue to do so until 
ISIL is dealt a lasting defeat.
    Two of the other four challenges reflect a return in some 
ways to great superpower competition. One is in Europe, where 
we are taking a strong and balanced approach to deter Russian 
aggression. We haven't had to devote a significant portion of 
our defense investment to this possibility for nearly a quarter 
century, but now we do.
    The other challenge is in the Asia-Pacific, where China is 
rising, which is fine, but behaving aggressively, which is not. 
There, we are continuing our rebalance to the region to 
maintain the stability we have underwritten for the past 70 
years, enabling so many nations to rise and prosper in this, 
the single most consequential region for America's future.
    Meanwhile, two other longstanding challenges pose threats 
in specific regions: North Korea is one. That is why our forces 
on the Korean Peninsula remain ready, as they say, to fight 
tonight; the other is Iran, because while the nuclear accord is 
a good deal for preventing Iran from getting a nuclear weapon, 
we must still deter Iranian aggression and counter Iran's 
malign influence against our regional friends and allies, 
especially Israel, to which we maintain an unwavering and 
unbreakable commitment.
    Now, addressing all of these five challenges requires new 
investments on our part, new posture in some regions, and also 
new and enhanced capabilities. For example, we know we must 
deal with these challenges across all domains and not just the 
usual air, land, and sea, but also especially in cyber, 
electronic warfare, and space, where our reliance on technology 
has given us great strengths and great opportunities but also 
led to vulnerabilities that our adversaries are eager to 
exploit.
    Key to our approach is being able to deter our most 
advanced competitors. We must have and we seem to have the 
ability to ensure that anyone who starts a conflict with us 
will regret doing so. In our budget, our capabilities, our 
readiness, and our actions, we must and will be prepared for a 
high-end enemy, what we call full spectrum.
    In this context, Russia and China are our most stressing 
competitors, as they have both developed and continue to 
advance military systems that seek to threaten our advantages 
in specific areas. We see them in the South China Sea and in 
Crimea and in Syria as well. In some cases, they are developing 
weapons and ways of war that seek to achieve their objectives 
rapidly before they think we can respond. Because of this, DOD 
has elevated their importance in our planning and budgeting.
    In my written testimony, I have detailed how our budget 
makes critical investments to help us better address these five 
evolving challenges. We are strengthening our deterrence 
posture in Europe by investing $3.4 billion for our European 
Reassurance Initiative [ERI], quadruple what we requested last 
year.
    We are prioritizing training and readiness for our ground 
forces, a very important matter emphasized very appropriately 
by the chairman, and reinvigorating the readiness and 
modernization of our fighter aircraft fleet. We are investing 
in innovative capabilities, like the B-21 Long Range Strike 
Bomber, micro-drone, and the arsenal plane, as well as advanced 
munitions of all sorts.
    In our Navy, we are emphasizing not just increasing the 
number of ships, which we are doing, but especially their 
lethality, with new weapons and high-end ships, and extending 
our commanding lead in undersea warfare, with new investments 
in unmanned undersea vehicles, for example, and more submarines 
with the versatile Virginia Payload Module that triples their 
strike capacity from 12 Tomahawks to 40.
    And we are doing more in cyber, electronic warfare, and 
space, investing in these three domains a combined total of $34 
billion in 2017. Among other things, this will help us build 
our cyber mission force, develop next-generation electronic 
jammers, and prepare for the possibility of a conflict that 
extends into space. In short, DOD will keep ensuring our 
dominance in all domains.
    As we do this, our budget also seizes opportunities for the 
future. That is a responsibility I have to all my successors, 
to ensure the military and the Defense Department they inherit 
is just as strong, if not stronger, than the one I have the 
privilege of leading today.
    That is why we are making increased investments in science 
and technology, innovating operationally, and building new 
bridges to the amazing American innovative system, as we always 
have, to stay ahead of future threats. That is why we are 
building what I have called the force of the future, because as 
good as our technology is, it is nothing compared to our 
people.
    And in the future, we must continue to recruit and retain 
the very best talent. Competing for good people, for an All-
Volunteer Force, is a critical part of our military edge, and 
everyone should understand this need and my commitment to 
meeting it.
    And because we owe it to America's taxpayers to spend our 
defense dollars as wisely and responsibly as possible, we are 
also pushing for needed reforms across the DOD enterprise, and 
we need your help with all of them. From further reducing 
overhead and excess infrastructure, to modernizing and 
simplifying TRICARE, to proposing new changes to the Goldwater-
Nichols Act that defines much of our institutional 
organization, as I intend to do shortly, to continuously 
improving acquisitions.
    And on that subject, I want to commend this committee, and 
especially its leaders, for your continued dedication and 
strong partnership with DOD on acquisition reform. We have 
already taken important strides here, such as last year's 
reforms to reduce redundant reporting requirements and 
documentation. And as you are looking to do more, so are we.
    Chairman Thornberry, I know you laid out new proposals on 
this last week. Some of what you are proposing would save us 
critical time in staying ahead of emerging threats. That is 
very important, and we appreciate that. It is extremely 
helpful.
    And I know this is just a draft, and I appreciate that you 
put it out there for discussion. In that regard, I have to say 
that, in the current draft, there are some things that are 
problematic for us, so I am also hopeful that we can continue 
to work with you on your proposals to ensure that DOD has the 
flexibility needed to apply the principles in your work to 
addressing all the diverse acquisition challenges we have to 
solve for our warfighters.
    I appreciate your willingness to hear our ideas as well, 
including ways to make it easier for program managers to do 
their jobs, and involving the service chiefs more in 
acquisition decisionmaking and accountability. And I look 
forward to working together as we have before.
    Let me close on the broader shift reflected in this budget. 
The Defense Department doesn't have the luxury of just one 
opponent or the choice between fights, between future fights 
and current fights. We have to do it all. That is what this 
budget is designed to do, and we need your help to succeed.
    I thank this committee again for supporting the Bipartisan 
Budget Act that set the size of our budget. Our submission 
focuses on the budget shape, making changes that are necessary 
and consequential. We hope you approve it.
    I know some may be looking at the difference between what 
we indicated last year we would be asking for and what the 
budget deal gave us: a net total of about $11 billion less is 
provided by the Bipartisan Budget Act out of a total of almost 
$600 billion. But I want to reiterate that we have mitigated 
that difference and that this budget meets our needs.
    The budget deal was a good deal. It gave us stability. We 
are grateful for that. Our greatest risk, DOD's greatest risk 
is losing that stability this year and having uncertainty and 
sequester return in future years. That is why, going forward, 
the biggest budget priority for us strategically is Congress 
averting the return of sequestration to prevent what would be 
$100 billion in looming automatic cuts so that we can maintain 
stability and sustain all these critical investments I have 
been speaking of.
    We have seen this before, and that same support coming 
together is essential today to address the security challenges 
we face and to seize the opportunities within our grasp. As 
long as we work together to do so, I know our national security 
will be on the right path and America's military will continue 
to defend our country and help make a better world for 
generations to come.
    Thank you.
    [The prepared statement of Secretary Carter can be found in 
the Appendix on page 67.]
    The Chairman. Thank you, sir.
    General Dunford.

STATEMENT OF GEN JOSEPH F. DUNFORD, JR., USMC, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    General Dunford. Chairman Thornberry, Congresswoman Davis, 
distinguished members of the committee, good morning and thanks 
for the opportunity to join Secretary Carter and Secretary 
McCord in appearing before you.
    I would like to begin by echoing Secretary Carter's 
comments on the loss of Staff Sergeant Cardin; his family, the 
eight other Marines who were injured this weekend, and the 
victims of this morning's attack in Brussels are in our 
thoughts and prayers.
    I am honored to represent the extraordinary men and women 
of the joint force. Our soldiers, sailors, airmen, marines, and 
civil servants remain our single most important competitive 
advantage. And thanks to your support, the United States 
military is the most capable fighting force in the world.
    I don't believe we should ever send Americans into a fair 
fight. Rather, we must maintain a joint force that has the 
capability and credibility to assure our allies and partners, 
deter aggression, and overmatch any potential adversary. This 
requires us to continually improve our joint warfighting 
capabilities, restore full-spectrum readiness, and develop the 
leaders who will serve as the foundation for the future.
    The United States is now confronted with challenges from 
both traditional state actors and non-state actors. The 
Department has identified five strategic challenges, and 
Secretary Carter has outlined those. Russia, China, Iran, and 
North Korea continue to invest in military capabilities that 
reduce our competitive advantage.
    They are also advancing their interests through competition 
with a military dimension that falls short of traditional armed 
conflict and the threshold for traditional military response. 
Examples include Russian actions in Ukraine, Chinese activities 
in the South China Sea, and Iran's malign influence across the 
Middle East.
    At the same time, non-state actors, such as ISIL and Al 
Qaeda, pose a threat to the homeland, the American people, our 
partners, and our allies. Given the opportunity, such extremist 
groups would fundamentally change our way of life. As we 
contend with the Department's five strategic challenges, we 
recognize that successful execution of our defense strategy 
requires that we maintain credible nuclear and conventional 
capabilities.
    Our strategic nuclear deterrent remains effective, but it 
is aging and requires modernization. Therefore, we are 
prioritizing investments needed for a safe, secure, and 
effective nuclear deterrent. We are also making investments to 
maintain a competitive advantage in conventional capabilities, 
and we must further develop capabilities in vital and 
increasingly contested domains of space and cyber space.
    As the joint force acts to mitigate and respond to 
challenges, we do so in the context of a fiscal environment 
that has hampered our ability to plan and allocate resources 
most effectively. Despite partial relief by Congress from 
sequester-level funding, the Department has absorbed $800 
billion in cuts and faces an additional $100 billion of 
sequestration-induced risk through fiscal year 2021.
    Absorbing significant cuts over the past 5 years has 
resulted in our underinvesting in critical capabilities. And 
unless we reverse sequestration, we will be unable to execute 
the current defense strategy and specifically to address the 
challenges that Secretary Carter outlined in his remarks.
    The fiscal year 2017 budget begins to address the most 
critical investments required to maintain our competitive 
advantage. To the extent possible, within the resources 
provided by the 2015 Bipartisan Budget Act, it addresses the 
Department's five challenges. It does so by balancing three 
major areas: investment in high-end capabilities; the 
capability and capacity to meet our current operational 
demands; and the need to rebuild readiness after an extended 
period of war. In the years ahead, we will need adequate 
funding levels and predictability to fully recover from over a 
decade at war and delayed modernization.
    A bow wave of procurement requirements in the future 
include the Ohio-class replacement, continued cyber and space 
investments, and the Long Range Strike Bomber. It will also be 
several years before we fully restore full-spectrum readiness 
across the services and replenish our stocks of critical 
precision munitions. And I know the committee has heard from 
the service chiefs on the specifics of that readiness recovery.
    In summary, I am satisfied that the fiscal year 2017 budget 
puts us on the right trajectory, but it will take your 
continued support to ensure the joint force has the depth, 
flexibility, readiness, and responsiveness that ensures our men 
and women never face a fair fight.
    Once again, thank you for the opportunity to appear before 
you this morning, and I look forward to your questions.
    [The prepared statement of General Dunford can be found in 
the Appendix on page 104.]
    The Chairman. Thank you, sir.
    Mr. McCord, I understand you do not have an oral statement. 
Is that correct?
    Secretary McCord. That is correct, Mr. Chairman.
    The Chairman. I appreciate you being here today as well.
    Mr. Secretary, I think you are exactly right to condemn the 
attacks in Brussels, and you are exactly right to express 
sympathy for the victims. I think the question especially for 
this committee but for the American people is, okay, what are 
we going to do about it?
    And in last year's bill, section 1222 asked the 
administration to provide a strategy for how we were actually 
going to implement the President's stated desire to degrade and 
destroy ISIS [Islamic State of Iraq and Syria]. And as I 
mentioned, it has been radio silent. We have heard not a word 
from anybody.
    Now, to be fair, it is not just a matter for the Department 
of Defense. It is not just the military who will defeat ISIS, 
and the requirement in law was not just directed to the 
Department of Defense. But do you have any idea when we might 
see a strategy on how to beat ISIS?
    Secretary Carter. Well, thank you, Mr. Chairman.
    And you are right: the Brussels attacks reinforce our need 
to accelerate the defeat of ISIL. We have a strategy for doing 
so. I will describe it in a moment. The strategy document, the 
strategy report you are asking for, its delivery is imminent. 
It is a DOD-plus-others document, and we will get that to you.
    But the strategy in brief is this, and then I will connect 
it to the Brussels attacks. I was describing the campaign in 
Iraq and Syria, which we are accelerating, and, Mr. Chairman 
and members, we are looking for more opportunities to do so. We 
found opportunities. I expect us to find more opportunities in 
the future.
    We want to accelerate the defeat of ISIL in Iraq and Syria. 
Why? Because that is what I call the parent tumor of the 
cancer. That is where it started. And if we can expel ISIL from 
Raqqa and Mosul, that will show that there is no such thing as 
an Islamic State based upon this ideology. So that is 
necessary, but it is not sufficient.
    We also need to destroy ISIL in the places to which it has 
metastasized around the world. And to get to the Brussels 
attack, that reminds us--and the report will also, by the way--
that important as the military effort is, essential as it is 
and committed as we are to that in the Department of Defense, 
the Chairman and I and everybody else, it is necessary, but it 
is not sufficient.
    We need the intelligence. We need the homeland security. We 
need the law enforcement. And so do our partners because of the 
kind of thing you saw in Brussels this morning. So we have the 
strategy. We will produce the strategy--the report based on 
that. We need your help.
    And in that connection, finally, if I just may add a note, 
Mr. Chairman, an appeal, we have before this committee and 
three other committees some reprogramming requests that are 
relevant to our ability to carry out the campaign in both Iraq 
and Syria.
    And, as you know, according to the rules, if we are going 
to do a reprogramming, we have to ask the permission of this 
committee and three other committees. We have done so. So far, 
we have gotten different answers from everybody, which is fair 
enough, but if you can help us, we need to get across the 
finish line quickly. We have got to be agile in the defeat of 
ISIL, and that means we need to be agile in this matter of 
reprogramming as well. I appreciate your help in that regard.
    Let me ask the Chairman if he wants to add anything about 
the overall strategy.
    The Chairman. Mr. Secretary, on the reprogramming, I think 
all of us would feel better about a reprogramming if we knew 
what direction we were going, which is why in last year's bill, 
the request was: Okay, tell us how you are going to do this. 
And then, as you want to move money around and a variety of 
other things, I am sure there will be lots of support. But 
until there is some sort of coherent direction on how we are 
going to beat these guys, then I think it is harder to have 
that conversation.
    Let me just ask you one other thing because I know other 
members will want to continue to explore that topic. You were 
exactly right, as was Chairman Dunford, in expressing sympathy 
for the loss of the marine over the weekend.
    I am getting an increasing number of questions about the 
troop cap levels, which exist in both Iraq and Afghanistan, 
because, as I understand it, there are some people who are 
subject to the troop caps, and then there are some people who 
rotate in for a short amount of time that are not subject to 
the troop caps.
    And the argument is that if you are rotating people in 
every 30 days, or whatever it is, to keep below the troop caps, 
then the people who are rotating in are not going to have time 
to get acclimated to the environment and may be at increased 
risk. The other argument I have heard is that when you have 
these artificial troop caps, you don't bring in the force 
protection that you would in other situations where you are not 
subject to those troop caps.
    So, I guess, my question to you is, do you believe there is 
reason to be concerned that these artificial troop caps in Iraq 
and in Afghanistan lead to increased risk for our service 
members?
    Secretary Carter. Thanks, Mr. Chairman.
    First of all, with respect to the troop cap numbers, there 
has been no change in that regard, and you are right: people 
who are temporarily assigned--and this has been true for here 
and in Afghanistan for some time--they, under the caps, are 
counted differently, as you well know. And I can't go into it 
in detail here, where each and every unit is, but we do provide 
that to the committee and so you can have that, not in this 
setting.
    But to get to the substance of what you said about 
everybody--I will get the Chairman to comment on this too--
everybody that is in Iraq is properly trained for the mission, 
that included the Marines there. And to force protection, that 
was, in fact, their mission.
    What they were doing was helping to protect the staging 
area near Makhmur, where we are and our coalition partners are 
helping the Iraqi Security Forces, some of the brigades that 
will constitute the envelopment force of Mosul. So that is part 
of the preparation for operations against Mosul, and precisely 
what they were doing was protecting that position.
    That was a necessary task. We are very sorry about the loss 
of this member in accomplishing that necessary task, but it was 
necessary because we needed to position them there. And these 
Iraqi Security Forces, who in the end will be the force that 
both takes and holds Mosul, they need to be trained, and they 
need to be positioned near Makhmur. That is what was going on 
there.
    Let me ask the Chairman if he wants to add anything.
    General Dunford. Mr. Chairman, to your specific question 
about have we compromised force protection or other critical 
capabilities as a result of the force cap, I can tell you we 
haven't done that. And I have routinely engaged Lieutenant 
General McFarland and commanders on the ground and asked them, 
is there something else you need? In fact, I will see General 
McFarland again this afternoon, have the same conversation with 
him.
    To date, we haven't had any requests that we have gone to 
the President with--and this is now over the last several 
months--for capabilities that has been denied. We are in the 
process right now of bringing forward recommendations for 
increased capability as a result of operations in Mosul, Raqqa, 
and elsewhere, so we can maintain a momentum and accelerate the 
campaign.
    But at this time, Chairman, I don't have concerns that we 
have not put forces on the ground that have impacted either our 
force protection, CASEVAC [casualty evacuation] capability, or 
any of those things. We build a force from the bottom up with 
those in mind.
    The Chairman. Well, I appreciate that, General.
    To me, it makes no sense to put artificial troop caps in 
any place. The question is, what does it take to do the 
mission? And I know, just as I trust you to continue to follow 
this question, it is something that the committee wants to 
continue to follow as well.
    Last question. General, you heard some of my comments 
earlier about the readiness issues. Let me just offer a handful 
of other quotes on the record. General Neller said our aviation 
units are currently unable to meet our training and mission 
requirements primarily due to ready basic aircraft shortfalls.
    General Milley and General Allen have testified, less than 
one-third of Army forces are at acceptable levels of readiness. 
The readiness of the United States Army is not at a level that 
is appropriate for what the American people would expect to 
defend them.
    Last week, Secretary James: Less than half our combat 
forces are ready for a high-end fight. And she later said: The 
Air Force is the smallest, oldest, and least-ready force across 
the full spectrum of operations in our history.
    Do you agree that we have a significant readiness problem 
across the services, especially for the wide variety of 
contingencies that we have got to face?
    General Dunford. Mr. Chairman, I do. And I think those are 
accurate reflections of the force as a whole.
    From my perspective, there are really three issues: there 
are the resources necessary to address the readiness issue; 
there is time; and then there is the operational tempo. And the 
readiness challenges that we are experiencing right now are 
really a result of several years of unstable fiscal environment 
as well as extraordinarily high operational tempo. And it is 
going to take us some years to get out of the trough that we 
are in right now.
    What I am satisfied with in this year's budget, fiscal year 
2017, is that we have met the requirements from a fiscal 
perspective that the services have identified for readiness. In 
other words, we can't buy our way out of the problem in fiscal 
year 2017 with more money because of the aspect of time and 
operational tempo.
    I think the service chiefs probably also identified to you, 
Mr. Chairman, and the committee, that in the case of the Army, 
the Navy, and the Marine Corps, it will be sometime around 
fiscal year 2020 before they address their current readiness 
challenges. And the Air Force is projecting horizon as late as 
fiscal year 2028 before they come out of the challenge.
    And part of that is, again, operational tempo and resources 
and time. And some of it is what you saw in your recent visit 
down in the 2nd Marine Aircraft Wing where depot-level 
maintenance has been backlogged. What you saw in the Marine 
Corps, I think, reflects in some part what you will see in all 
the services, perhaps not to the same degree as Marine 
aviation, but that same dynamic exists in each one of the 
services and reflects in the comments that you heard before the 
committee.
    The Chairman. I will just say, I think it is important for 
us and for you all to continue to not only watch this issue but 
really understand down deeper what is happening. Statistics are 
one thing, but you talk to these folks eyeball to eyeball and 
the sense of frustration and concern is very evident.
    Thank you for your answers. I yield to Mrs. Davis.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman.
    Again, thank you both for your extraordinary service to our 
country.
    I wanted to go back for a second to the questions that I 
raised in the opening statement because I think we grapple with 
that here. And I know that we are going to be talking about OCO 
funding down the line, overseas contingency, and the Bipartisan 
Budget Act as well.
    You stated, as you just did, equipment is one thing but 
well-trained personnel and leadership are quite another, and 
the latter do take time. And so we need to work this as best we 
can. In the statement I offered, what you have said quite, I 
think, clearly, that modernization and readiness of our force 
structure is where your tradeoffs are going in the budget 
process. And I am wondering, would the Department's tradeoff 
choices become harder or easier if OCO needs are supplemented 
by base budget requirements within bipartisan budget compliant 
top line? Is that helpful? What poses the greatest risk really 
to our national security, providing funding for base budget 
requirements at the level requested by the President or 
providing funding for near-term OCO requirements at least 
initially at levels lower than requested?
    One of the things that I was just going to say, Mr. 
Secretary, that I know you have said so well here is that under 
the best of all possible worlds, we would be funding the base 
budget at the level that we need, including OCO for very 
specific oversea contingencies. But that is not exactly where 
we are right now. And we have to be certain that other budget 
requirements, whether it is in the homeland security, whether 
it is in--wherever that may be are also working well within our 
budget as we move forward.
    Secretary Carter. Well, you are right: generally speaking, 
the base and the OCO budgets have different managerial 
purposes. The base budget is for things that are enduring, 
meeting enduring requirements, and OCO is for the variable 
costs associated with urgent ongoing operations. That is still 
largely true, but it is not completely true.
    And to get to your question, one of the ways that we were 
able to mitigate the difference between what we last year 
planned in our 2017 budget and what the bipartisan budget 
agreement provided us, was to use some OCO, about $5 billion 
net. And that is one of the things that bought down that risk 
associated with that difference, but it is only one way that we 
did that.
    We also benefitted, by the way, from fuel costs, different 
inflation indices than we expected. And what we did with the 
remaining--to get to your point of what do we do to accommodate 
the Bipartisan Budget Act, that $11 billion change, we took it 
out of some procurement accounts, some aircraft, and some 
smaller programs. We took it out of MILCON [military 
construction].
    Let me tell you what we didn't do to accommodate that 
difference between the BBA and what we planned on last year. We 
didn't take it out of military compensation, any of our service 
members' compensation. We didn't take it out of readiness, out 
of the readiness recovery plans that the Chairman has referred 
to. We didn't take it out of any of our major acquisition 
programs, stop any of them, break any multiyear contracts. And 
we didn't change any of our end-strength numbers, targets, as a 
result of that.
    So that is how we accommodated the $11 billion, and that is 
the reason why the Chairman and I say, that part we managed to 
mitigate and bring forward a budget that meets our needs. Our 
worry is in the future and with the $100 billion cuts that we 
face. And wherever they come from in the accounting, that is 
the biggest strategic risk to us.
    Mrs. Davis. General Dunford, did you want to----
    General Dunford. Congresswoman, the thing I would probably 
add is, you talked about modernization over force structure. 
And, frankly, this year, as we focused on capability 
enhancements, it was really as a result of 3 or 4 years of not 
addressing those and realizing that we were losing our 
competitive advantage against the peer competitors that I 
mentioned, the Russias, the Chinas, and even in this case of 
North Korea and Iran.
    And we knew, were we not to make those capability 
investments this year, if you look out 3 to 4 or 5 years, we 
would not be where we needed to be. So, from my perspective, it 
isn't so much force structure over modernization; it is trying 
to get within the top line that we have the right balance 
between force structure and capability in today's force, with 
sufficient investment in tomorrow's force to make sure that the 
force that we have today that I am proudly able to say is the 
best in the world is the best in the world in 2021 and 2022.
    And that is why I think the Secretary directed us this year 
to make a slight course and speed correction in terms of how we 
were investing our funds to get better balance between today's 
fight and tomorrow's fight.
    Mrs. Davis. Yeah. And I think, Mr. McCord, as well, I think 
what may be understandable in terms of the defense budget isn't 
necessarily understandable to folks that are looking at their 
budgets in other departments, and that is partly where the rub 
comes.
    Secretary McCord. I think that is correct, Mrs. Davis.
    And just one point on your earlier question. To get a 
marginal maybe increase in OCO this year without knowing if we 
could count on it in the future is pretty sub-optimal for us in 
terms of being able to plan and use that money as effectively 
as we might. If we knew that the requirement would be taken 
care of permanently, that is much better for us.
    Mrs. Davis. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    Mr. Secretary, I am going to take you in a different 
direction, totally different subject. I want to personally 
thank you and especially thank Secretary Robert Work. I spent 
13 years of my life trying to clear the names of two Marine 
pilots who crashed a V-22 Osprey in Marana, Arizona, on April 8 
of the year 2000.
    Secretary Carter, I want to thank Secretary Work publicly 
because he did something that I could not get the Marine Corps 
to do, and that is to look openly and evaluate the information 
that we had put together working with experts. Many of those 
were Marine pilots themselves. There were aeronautical 
engineers who came to the aid of saying that at the time, if 
you remember, that Secretary of Defense Cheney wanted to scrap 
the V-22 program. There was a lot of pressure. There was a lot 
of push by the Marine Corps to make sure that the V-22 was 
their plane for the future.
    When I reached out and found Secretary Work, he spent the 
time to meet with me and spent several hours, days, researching 
all the information that we had put together. A team of experts 
helped me to put it together. And then he came back with his 
evaluation that the record needed to be corrected, that it was 
unfair to Colonel John Brow, pilot, and Major Brooks Gruber, 
copilot, whose wife brought this to my attention in the year 
2002.
    And I want to say today that you have brought peace--
Secretary Work and you--have brought peace to the families of 
John Brow and Brooks Gruber. And I believe sincerely that John 
Brow and Brooks Gruber are now resting in their graves, and 
they are resting peacefully because of what you and Secretary 
Work have done.
    This has gotten national attention. And I have talked to 
Trish Brow, and I have talked to Connie Gruber. They are 
hearing from marines who are now retired. They are hearing from 
friends from years passed who have said ``Hallelujah'' that now 
the truth is known and those two pilots will not take the blame 
for what was unfair at the time of the accident.
    So I want to thank you publicly and thank Deputy Secretary 
Robert Work, because the truth is now known that they were not 
responsible for that accident. It was a combination of many, 
many factors. So I will give you a chance to respond, and then 
I will yield back the balance of my time.
    Secretary Carter. Thank you so much. I appreciate you 
saying that. I am glad that the families are able to be at 
peace now, and I will pass that on to Secretary Work, my 
excellent Deputy Secretary. I am pleased to hear you say that 
about him, but I am not surprised.
    Mr. Jones. Thank you, sir.
    I yield back the balance of my time.
    The Chairman. Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Mr. Secretary, I think you have an obligation, certainly a 
right, to respond to something that former Deputy Director of 
CIA [Central Intelligence Agency] said yesterday in response to 
a question. He said that ISIL is winning, and he said based on 
two assessments: one, although there is less caliphate 
territory, they seem to be spreading their influence beyond the 
caliphate territory; and then, of course, in direct reference 
to the attacks in Brussels.
    So I wanted to get your assessment about whether you think 
ISIL is winning, and if not, your assessment of the former 
Deputy Director of CIA's comments.
    Secretary Carter. I am not familiar with those comments.
    And as far as the campaign is concerned, I am confident 
that we will defeat ISIL and that we have the momentum of the 
campaign in Iraq and Syria. I gave you some of the details 
about that. And we are prepared to give you much more. We are 
doing more. We are actually looking to do yet more than that. 
And I am confident that that will result in the defeat of ISIL 
in Iraq and Syria. And as I said, that is necessary. It is not 
sufficient, as the attacks in Belgium suggest.
    And let me ask if the Chairman wants to add anything to 
that. But ISIL will be defeated. We have a strategy to do that. 
I am sorry the report hasn't gotten to you but will shortly, 
and I am confident that strategy will succeed.
    General Dunford. Congressman, first, I am not complacent 
about the threat of ISIL. And I recognize the spread of ISIL 
particularly over the last 15, 18 months transregionally or 
globally.
    With regard to Syria and Iraq, in October I appeared before 
the committee, and at that time, I think it was fair to say 
that ISIL had the momentum. Since that time, they not only have 
less territory, they have less resources. They have less 
freedom of movement. We have reduced the number of foreign 
fighters that are actually able to flow back and forth. And, 
frankly, I think their narrative is less effective than it was 
some months ago.
    But this is a long fight. And I am confident in telling you 
that we have the momentum today. I am also confident in the end 
state that Secretary Carter identified. But this morning was 
another reminder that there is a long fight ahead, and it will 
require not only the military effort to deny sanctuary to the 
enemy in Syria and Iraq, to limit their freedom of movement, to 
build the capacity of regional partners, which is what we are 
doing, but it will require a much greater cooperation amongst 
intelligence organizations from nations.
    There are over 100 nations that have foreign fighters in 
Syria and Iraq with over 30,000 foreign fighters. So the 
cooperation of all those countries and the intelligence 
organizations, law enforcement officials, as well as the 
military coalition that we put together in Iraq and Syria and 
conducting operations elsewhere, is all going to be critical. 
And it is going to take some time before we get there.
    But I am confident, at least today, that we have the 
momentum in Iraq and Syria. And we are increasingly taking 
actions outside of Iraq and Syria to make sure that we also 
keep pressure, as we have tried to keep pressure on Iraq, on 
the enemy simultaneously across both of those countries. It is 
going to be necessary that we do the same thing 
transregionally.
    Mr. Larsen. I am going to move to the budget and talk about 
taking the long view.
    Unfortunately for you, you don't get to be here for the 
implementation of the long view and to help us deal with the 
actual long view. And we have been having this debate a little 
bit, and Mrs. Davis touched upon it. And I am just wondering 
how you envision affording these incredibly expensive programs 
that we have outside, not just outside of this budget but 
outside of the 5 years and even 10. Nuclear modernization is 
one of those, but it is not the only one where we are going to 
be called upon, if we have the fortunate success of staying 
here, to resolve and solve.
    Secretary Carter. Well, we can afford all of those. We 
wouldn't have started them if we didn't think we could complete 
them. However, we are assuming when we do so that we will 
continue to have budget stability. If there is instability or 
sequester, as I said, and I think the Chairman just said, we 
are going to have to fundamentally reassess our ability to meet 
our needs, not only in the long run but in the short run.
    And you are right: it will be future Congresses and future 
administrations who carry that burden. I hope that they 
continue to give us budget stability as we have had now for 2 
years. That is what the country needs. That is what our 
Department needs. That is what, by the way, what every 
department trying to administer programs needs.
    But if we snap back to the sequester cuts, we are going to 
have to reconsider all of these programs. We need them and 
therefore we need the stability. Chairman.
    Mr. Larsen. That is fine. I thank you, Mr. Chairman.
    I yield back.
    The Chairman. Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. And thank all of you 
gentlemen for being here.
    General Dunford, it is always an honor to have the top 
uniformed officer in the United States before us, and so I am 
going to direct my questions to you since I only have 5 
minutes. And I would like to first ask you a question we have 
been asking all of our officers before us. Did you submit your 
written remarks to anyone for approval or review other than 
someone under your direct command before you had to come before 
us?
    General Dunford. Congressman, I did submit my remarks to 
the Office of Secretary of Defense as well as Office of 
Management and Budget. No changes were made in my written 
remarks as a result of that review.
    Mr. Forbes. Now, one of the things that I heard you just 
say in response to the chairman was you said that your 
readiness concerns were based on an unstable fiscal 
environment. And one of the concerns I always have, we wrestle 
within this committee, is simply this: when we look at whether 
strategy is driving the budget, the President's budget, or 
whether the President's budget is driving strategy, the 
question is, which one of them are predominant?
    Is it the strategy that is predominant in driving the 
President's budget, or is it the President's budget that is 
predominant in driving the strategy?
    General Dunford. Congressman, I think this year, it is fair 
to say that within the top line that we were given----
    Mr. Forbes. No. For the last several years, just as a rule, 
is it the strategy that is more predominant in driving the 
budget or the budget that is more predominant in driving the 
strategy?
    General Dunford. I would say if you go back to the last few 
years and particularly look at sequestration in 2013, the 
fiscal environment has had a bigger impact than the budget.
    Mr. Forbes. So, then, when we have constantly asked people 
that have come in here, many people from the Pentagon, saying 
that the budgets are in line with the strategy, then what you 
are saying is basically that it has been the budget that has 
been driving our strategy?
    General Dunford. Congressman, let me--if I can give you 
just a little bit of a nuanced answer, here what I am confident 
in saying. Today, we have a defense strategy that calls for us 
to defeat an enemy, to deny another adversary, to protect the 
homeland, as well as deal with violent extremism. I am 
confident in fiscal year 2017 that we will be able to do that--
--
    Mr. Forbes. All right.
    General Dunford [continuing]. With risk.
    Mr. Forbes. Let me ask you this. And I don't mean to cut 
you off. I only have 3 minutes. I am looking at a document here 
that was signed by President Obama on January 3, 2012, for the 
Defense Guidance, and he says specifically in here: This 
guidance was requested to guide the spending over the coming 
decade. Then I have it signed on January 5, the Defense 
Guidance, by Secretary Panetta, and this is what over and over 
again people who have been coming in here pointing to and 
saying this has been directing their spending. And then we had, 
in 2014, the Quadrennial Defense Review. Over and over again, 
people have sat where you are sitting and have said that this 
has guided the spending of the Department of Defense.
    Has the Department of Defense been following the 
President's guidelines and been basing their spending on these 
two documents?
    General Dunford. We have, Congressman, but what we have 
been doing is living year to year and deferring modernization 
that is going to cause a build in the out years, so----
    Mr. Forbes. And I understand that. Now, let me ask you 
this, because these documents are based on certain assumptions. 
Did either of these two documents account for the rise of ISIL?
    General Dunford. They did not.
    Mr. Forbes. Did either of these two documents assume that 
U.S. forces will no longer be in Iraq and Afghanistan?
    General Dunford. They did not.
    Mr. Forbes. And, in fact, we do have forces still in Iraq 
and Afghanistan.
    Did either of these two documents assume that we would 
reset our relationship with Russia and that we would be able to 
cooperate with them?
    General Dunford. We did not foresee Russia's current 
actions in those documents.
    Mr. Forbes. So the assumptions made for these two documents 
were not correct with the Russians, right?
    General Dunford. With regard to Russia, that is correct.
    Mr. Forbes. Did either of these two documents account for 
China's aggressive behavior in the South China Sea?
    General Dunford. Not to the extent that we have seen it, 
Congressman.
    Mr. Forbes. Now, with that, wouldn't it be fair to say if 
the assumptions that these assumptions were based upon were 
invalid or wrong, that the strategy would also have been 
invalid or wrong?
    General Dunford. The strategy needs to be refined, and we 
are in the process of doing that. That is correct, sir.
    Mr. Forbes. And, also, General Odierno, when I asked him 
that question right after these were put into place, he said: 
We struggle to even meet one major contingency operation. It 
depends on assumptions. And I believe some of the assumptions 
that were made are not good assumptions; they are unrealistic 
and very positive assumptions.
    Yet these are the two documents that helped guide the 
President's budget in 2014, 2015, 2016, and 2017. So wouldn't 
it be fair, General, for us to say that, instead of just the 
unstable fiscal environment, that a big part of the reason we 
are in the current situation we are in is because the 
President's strategies were based on faulty assumptions?
    General Dunford. This year, Congressman, we----
    Mr. Forbes. I am talking about the last several years 
leading up to this. This year's budget is not putting us in the 
situation that the chairman talked about.
    General Dunford. If you are asking, did we foresee the 
current conflict with ISIL and Russia----
    Mr. Forbes. I am asking you, wouldn't it be fair to say 
that rather than just fiscal instability, that the reason we 
are in the problem is because of a faulty strategy?
    And, with that, Mr. Chairman, I know my time is up, and I 
yield back.
    The Chairman. Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to both witnesses for your service and your 
testimony today. I just have a couple quick questions.
    And, Secretary Carter, Admiral Stavridis, retired admiral, 
Under Secretary Stackley, Secretary Mabus have all appeared 
over the last couple of weeks, and we have talked about this 
question of the long view of the undersea fleet, which Admiral 
Harris and General Breedlove said at this point are kind of 
playing zone defense out there because of what is happening in 
the Pacific and the North Atlantic.
    Again, this is a good budget in terms of investing, as you 
point out, in shipbuilding or submarine building, but down the 
road, you know, there is a possibility that we are going to see 
a dip at probably the worst possible time. And so I guess the 
question is, do you agree that this is an issue that we need to 
work on, as Secretary Stackley has promised, so that we, again, 
are able to keep our eyes focused on the long view in terms of 
that emerging challenge?
    Secretary Carter. I do agree with that. Our undersea 
capability is a critical strength of the United States. We need 
to keep that strength and extend that strength. And I think the 
biggest issue we are going to face beginning in the 2020s is 
the beginning of the Ohio-class replacement, and that is the 
building, once again, of SSBNs [ballistic missile submarines] 
as well as attack submarines, SSNs, which we are doing today. 
And we have been stressing now for several years we are going 
to need some consideration of the need to recapitalize our 
undersea nuclear deterrent, because that can't be done at the 
expense of the rest of the undersea fleet or we will erode our 
dominance, so that is going to--that is a major issue that is 
looming in the 2020s.
    Mr. Courtney. Thank you. And, again, we think--you know, we 
have found some ways to use different authorities, multiyear 
procurement, et cetera, to try and, again, maximize every 
efficiency to help in that effort. And, again, Secretary 
Stackley emphasized that when he appeared before the committee.
    I would like to shift gears for a second. First of all, I 
want to thank you for your comments regarding what happened in 
Brussels yesterday, and also noting that Brussels is actually 
the home of NATO, and, you know, there is a lot of work that 
takes place in that city which is extremely important in terms 
of our national defense. Yesterday, the frontrunner for the 
Republican nomination told the Washington Post, NATO was set up 
at a different time; I think NATO as a concept is good, but it 
is not as good as it was when it first evolved.
    In your testimony, I counted three instances--the fight 
against ISIL, the continuing efforts in Afghanistan, and also 
the European Reassurance Initiative--where NATO is absolutely 
at the center of our military strategy and operations. Is NATO 
relevant today? I mean, I guess we need to ask that question, 
given what is out there in the public domain.
    Secretary Carter. Well, let me begin by saying the 
following, and I have said this before, and I am going to say 
this again and again in the course of the year: I recognize 
that this is an election year. I will not speak to anything 
that is in the Presidential debate. I believe that our 
Department has a tradition of standing apart, and I very much 
value and respect that tradition, and so I am going to, with 
great respect, decline to answer any question that is framed in 
those terms and, by the way, also not have General Dunford or 
any of our, especially of our uniformed officers----
    Mr. Courtney. So I agree, and I respect that. And I guess 
the question I would ask, then, is that the European 
Reassurance Initiative, that funding, again, is going to flow 
through the NATO structure. I mean, that is not a, you know----
    Secretary Carter. It is. It is. It is. And securing our 
NATO partners from particularly Russian aggression is the 
principal purpose of the European Reassurance Initiative.
    With respect to the counter-ISIL fight, the NATO allies as 
individual countries are members of the coalition. The question 
has arisen whether NATO as a group should also be a member of 
the coalition, and that is being discussed right now with NATO. 
The reason for that being that NATO has some force generation 
capabilities that no individual country has, and that is the 
reason why the question arises whether it can play a role in 
the counter-ISIL fight.
    Mr. Courtney. Thank you for those answers.
    The Chairman. Mr. Miller.
    Mr. Miller. Thank you very much, Mr. Chairman.
    General Dunford, looking back at the 2012-2014 Strategic 
Guidance and Defense Reviews, what specifically has changed in 
the geopolitical world? And based on those changes, is it safe 
to say that we need to look at--following on what Mr. Forbes 
said--recalibration or resizing of our current forces?
    General Dunford. Congressman, thanks. I would say that the 
most significant changes: one has been Russia; two has been the 
rise of ISIL. We talked about the behavior of China in the 
South China Sea, and certainly the capability development of 
North Korea have all been a concern. Iran remains a concern, 
but, quite frankly, the trajectory that they have been on was 
predictable even as those strategy documents were written, and 
so I think we accounted for Iran; but in the four other areas, 
we have seen either capability development or behavior or a 
combination of the two that have significantly changed the 
operating environment over the last few years.
    Mr. Miller. And I do think it is important that the 
American people understand the guidance that was used to set 
the size and shape of the force, and the current guidance, as 
you have already stated, said to defeat a regional adversary 
and deny another aggressor in the another region. However, in 
your written statement, you stated that, quote, ``The joint 
force will be challenged to respond to a major written 
contingency,'' unquote, and that, quote, ``Capability and 
capacity shortfalls would be particularly acute if the force 
were called to respond to a second contingency on an 
overlapping timeline.''
    So I would think that this might suggest that there is a 
significant risk that the joint force wouldn't even be able to 
execute a single major contingency operation. Is that true?
    General Dunford. Congressman, our assessment is we can meet 
the requirements of a single contingency. There is significant 
risk in our ability to do that, certain capability areas would 
be particularly stressed, but we can accomplish the objectives, 
albeit with much more time and probably casualties than we 
would like.
    Mr. Miller. The guidance calls for sufficient forces to 
execute, as you just said, two contingency operations, 
defeating one aggressor and denying the other. So, you know, if 
you put it in a real world scenario, could the current force 
today defeat a North Korea and deny Russia while at the same 
time defending the homeland?
    General Dunford. Congressman, we would be challenged to do 
those three things. Our assessment is we can do that, again, 
but it would take more time, particularly in the case of North 
Korea. It would take more time, and we would see more 
casualties than we would want to have.
    Mr. Miller. So the Department has cut the end strength and 
the force structure on the assumption that it did have the 
sufficient forces to carry out the assumptions that are there. 
So, given the current strategic environment, will the 
Department need to revisit the force size and guidance?
    General Dunford. Congressman, just to be clear, in terms of 
cutting force structure, my perspective is, you know, force 
structure is one element, but what is most important is that 
the force structure that we have has the proper resourcing to 
be well trained and well equipped. And so what I believe we 
have done inside the budget is we have got the force structure 
that is affordable within the top line that we have, and we can 
achieve the balance between the training, the resourcing, the 
modernization, the infrastructure support, and the force 
structure, all those things have to be combined. And so, you 
know, my assessment is that we are trying to get the balance 
right as opposed to saying that the current force structure is 
absolutely the best force structure we could have.
    Mr. Miller. Thank you.
    I yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And welcome to our guests. It is always good to have you 
before us. And I think today's tragic events in Brussels really 
are a stark reminder of the many challenges that you all deal 
with every day and that we are here to support you with. And I 
especially appreciated both your comments on the need for 
budget stability as you deal with the challenges of today, but 
also with the need to look forward, because as we all know, and 
I remember a previous chairman, Ike Skelton, always commenting 
upon, that we plan for today but we never quite know where the 
next challenge is going to come from. And in the world we live 
in today, it is clear that they can come from many, many 
different places.
    But, Secretary Carter, I also wanted to thank you for the 
emphasis that you have placed in this year's budget on research 
and development, really knowing that it is key to maintaining 
our technological edge, that in this rapidly changing 
environment, we have got to maintain our investments. And as 
many on the committee know, defense-related research and 
development has faced a disproportionately large cut over the 
past several years, far more than has been required under the 
Budget Control Act. So I was especially encouraged to see that 
the Department will be investing in two new facilities at MIT's 
[Massachusetts Institute of Technology's] Lincoln Lab. As you 
know, the lab has provided the Department with breakthrough 
advancements for decades, and I thank you for your support of 
the lab's revitalization and the important role that it plays 
in the Massachusetts innovation ecosystem. It is part of 
something much larger.
    But I would like to turn to the issue of sexual assault 
prevention and response in the military. I have been troubled 
by a number of stories, including a series in the AP 
[Associated Press] and recent stories in the Washington Post, 
about senior officer sexual assault cases, which have called 
into question the transparency of the military justice system 
and the services' willingness to pursue allegations against 
officers. I understand that the Military Justice Review Group's 
proposal that was shared with this committee by the Department 
gives the Department 2 years to come up with a design for an 
online system of tracking cases and 2 years to implement that 
system. And I would encourage the Department to work with all 
speed to make the military justice system as transparent as 
possible. And I hope the Department will make the system open 
to survivors and the public as you move ahead.
    But we have all heard the troubling accounts of victims of 
military sexual assault who are later retaliated against, those 
who seek recourse through the system of justice. Some 62 
percent of victims have experienced social or professional 
retaliation, according to the Department's own survey data. And 
I have also read the Judicial Proceedings Panel recommendation 
to implement a standard retaliation reporting form. It is 
imperative to me that the Department track these incidents and 
hold those responsible accountable. It is key to maintaining 
the unit cohesion and all that is part of readiness as well.
    So my questions are, Secretary Carter, what is the 
Department doing to ensure service members who report sexual 
assault aren't retaliated against?
    Secretary Carter. Thank you very much for that question. 
And sexual assault is unacceptable anywhere in society, but it 
is particularly unacceptable in our military, and the reason is 
this: the profession of arms is based upon trust, and it is 
based upon honor, and sexual assault erodes both honor and 
trust and, for that reason, is completely unacceptable at any 
level.
    Moreover, to get to your point, as we study that question 
more and take more action--and I am not happy that there is 
sexual assault in the military, I am very pleased that we are 
taking it on frontally, and we need to do that, and we need to 
learn how to do better. The two issues you raised are places 
where we are learning how to do better. Retaliation, for 
example, was something that I don't think--I think it is fair 
to say in our department, we did not appreciate the importance 
of that phenomenon until the last couple of years, and so we 
are having to take that on board. Retaliation creates 
additional victims to the victim of the sexual assault, and 
this can be peers, and it can be others who are part of giving 
the victim their care, their right--the options and the 
response that they deserve, and so it is an important new 
ingredient, and we are trying to get on top of that.
    And, finally, with respect to transparency, we are 
committed to that. You are right, we have made a commitment to 
you about greater transparency in this matter, and I intend for 
us to carry that through. Thank you for raising that.
    Ms. Tsongas. Thank you. I have run out of time. Thank you.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman. Thank you for being 
here today.
    With the attacks in Brussels, it is another reminder we are 
in a global war on terrorism, and it is continuing. And I just 
want you to know that I have faith in you, and we are counting 
on you to protect American families. And part of that is not 
forgetting 9/11. This is a continuing war; we will be in it for 
quite a while, but your service I know I appreciate as a 
grateful dad of four sons who have served in the military under 
you all's command.
    General Dunford, as Chairman Thornberry has mentioned, we 
have serious concerns about the state of the Marine Corps 
aviation. Marine Corps aviators and maintainers at the Marine 
Corps Air Station in Beaufort, South Carolina, tell us how they 
have had to cannibalize parts from museum aircraft to get their 
current fleet in the air. They don't have the parts. They don't 
have the people. They are not getting the training. 
Furthermore, General Robert Neller has testified that there 
aren't enough aircraft to even meet our training and mission 
requirements. I am very concerned that if they had to deploy 
tomorrow, they would be sent into a fight unprepared and ill 
equipped.
    How are we addressing this potential reality of an 
inability to respond to near-peer adversary or multi-adversary 
engagement? Beyond Marine Corps aviation, what else is at risk?
    Secretary Carter. Before you answer that, can I just thank 
you very much. I acknowledge your comments. And especially 
thank you for your contribution of your sons. Thank you, 
Congressman.
    Mr. Wilson. Well, again, hey, we are in this together, but 
the American people need to know it is a global war on 
terrorism;
9/11 must not be forgotten. So thank you.
    General Dunford. Congressman, quickly, go back to how we 
got in the position we are in with Marine aviation, as well as, 
frankly, as I mentioned, across the joint force, there are 
similar stories that I could point out. Part of it was deferred 
modernization, so we are flying aircraft now that are very old. 
Part of it was, back in 2013, we went through sequestration. We 
had a backlog of depot-level maintenance that has caused the 
availability of ready basic aircraft and so forth. So these 
issues exist throughout the joint force. And part of what we 
are arguing for now is stability in funding, managing the 
operational tempo, and getting the appropriate resources is 
going to be what we need to get out of this trough, and it is 
going to take some years before we are able to do that.
    Mr. Wilson. And we will be working with you.
    And, Secretary Carter, last week, Admiral John Richardson 
testified before the Senate Armed Services Committee [SASC] 
that Iran had violated international law earlier this year by 
boarding sovereign U.S. vessels, detaining 10 U.S. sailors, and 
seizing an estimated 13,000 pages worth of information from 
laptops, GPS [Global Positioning System] devices, and maps.
    Would you agree with Admiral Richardson's assessment? If 
so, would you please let us know what subsequent action has 
been taken to rectify this brazen defiance of international 
law?
    Secretary Carter. I absolutely agree with Admiral 
Richardson. The actions of the Iranians with respect to our 
sailors was unprofessional; it was outrageous. And I just 
caution you all, since Admiral Richardson is looking into the 
circumstances of this matter, but when you see something on 
television, you are looking through the lens of Iranian TV and 
Iranian propaganda. Those sailors didn't deserve that. That 
is--we would never treat people in that manner. And to get to 
your question, I can't say much about it, but at the time, we 
were preparing to protect our people as soon as they were 
seized, and we only stood down that effort when we were assured 
that they were going to be returned to us safely, but it was 
outrageous treatment. I think Admiral Richardson has stressed 
that, and I would second that, but also I want to commend him 
on the treatment of the sailors. They are back home. The Navy 
did what it needed to do, which is, first of all, take care of 
their health and welfare, and is now learning the full 
circumstances of that.
    He has not completed his review of that, so I don't know 
what his consequences are from that, but this much we know, 
which is that is not behavior that we would have exhibited in 
the reverse circumstance.
    Mr. Wilson. I also want to thank you, Mr. Secretary, for 
your efforts to promote public-private cooperation in 
cybersecurity, but a challenge we have is recruiting and 
training. What are we doing to prepare for the continuing cyber 
war?
    Secretary Carter. Well, thank you for that question. You 
are absolutely right. The critical thing in cyber is people, 
good people. We are spending more money on it, we are making 
big investments in it, but that is not the key. The key is, are 
we able to get the good people to flesh out our 133 cyber 
mission force teams, which, as you know, is what we are 
building up at CYBERCOM [Cyber Command] and all the other 
service components. The key is people. And we are doing better 
at attracting and retaining skilled technical people. I will be 
up at a physics class at West Point, as it happens, tomorrow, 
seeing some of our wonderful people who are being technically 
trained in their cyber center there. But, in addition, let me 
say that building bridges, which I am trying to do, we are all 
trying to do, between our department and the technology 
community is critical.
    Historically, the United States has drawn upon the great 
strength of this Nation, whether it is satellites or missiles 
or the Internet itself, and we need to keep doing that, and I 
am committed to doing that, because that is part of the future.
    And the last thing I will say is just a pitch for the role 
of the National Guard and Reserve Component in this regard. I 
was up in Washington State a couple of weeks ago. There is a 
Reserve unit up there that consists of people who work at 
topnotch companies like Microsoft all day on network defense, 
and then, in their Guard duty, they are defending our networks. 
It doesn't get any better than that, a citizen soldier coming 
in in cyber.
    So there are lots of ways we are trying to make sure we 
have good people, but we are able to, but that is the key, is 
good people in cyber.
    Mr. Wilson. Thank you.
    The Chairman. Mr. Takai.
    Mr. Takai. Thank you, Mr. Chairman.
    Secretary Carter, I would like to talk about the Rim of the 
Pacific exercises, or RIMPAC. In your letter last year to 
Senators McCain and Reid, you stated that you believe that 
China's participation in RIMPAC would advance cooperative 
approaches to common security challenges, increase transparency 
and mutual understanding, and integrate China into a 
cooperative forum. You also say that you may modify our defense 
engagement decisions based on evolving circumstances.
    My question is, have you recently evaluated China, and have 
you made any changes to the invitation to the PLA [People's 
Liberation Army] navy to participate in this year's RIMPAC?
    Secretary Carter. We are constantly evaluating our 
relationship with China and China's behavior, including in the 
South China Sea, where I emphasize we have very serious 
concerns about their aggressive militarization there.
    They have an invitation to RIMPAC, and we will continue to 
review that, but you might say, what is the logic for having 
them there in the first place? Our strategy in the Asia-Pacific 
is not to exclude anyone, but to keep the security architecture 
going there in which everyone participates, and that is what 
has led over 50 years to the rise of Japan, then South Korea, 
then Taiwan, then Southeast Asia, and now, yes, China and 
India. We are not excluding China from that security 
architecture, in which America plays the pivotal role, and we 
intend to keep playing that pivotal role. That is what the 
rebalance is all about.
    China is, however, self-isolating. Its behavior is 
isolating itself in the region. That is why all these partners 
are coming to us and saying: Can you do more with us? So not 
just big exercises with lots of parties, like RIMPAC, but we 
have the Japanese investing more, the Australians investing 
more, the Philippines just inviting us, once again, to work 
with them more closely, even Vietnam, India. So Chinese 
behavior is self-isolating and driving many countries to want 
to do more with us and are doing more with us, but that is not 
the way China is going to continue to benefit, as it has now 
for several decades, from the security system and the open 
system that we, the United States, have underwritten now for 
many decades.
    Mr. Takai. Okay. So if China builds a runway on Scarborough 
Shoal reef, PACOM [Pacific Command] Commander Admiral Harris 
assesses that Beijing will have total access across the South 
China Seas.
    Secretary Carter, is China conducting or preparing to 
conduct reclamation at the Scarborough Shoals, which is only 
120 miles from Subic Bay in the Philippines where our Navy 
regularly operates? And would you say that this behavior is 
consistent with U.S. objectives and the regional security 
environment?
    Secretary Carter. Well, Congressman, we are concerned about 
that prospect. And is it consistent? No, it is not consistent. 
It is the kind of behavior that we will react to in our own 
military posture and deployments, and all the regional partners 
will react to. So it will be self-defeating and self-isolating 
for China, so I hope they don't do that, but we are prepared 
for that eventuality should it occur. But, no, it is not a good 
thing for them to do that, and they shouldn't.
    And by the way, I would just say just to be fair about it, 
that our policy is that no one ought to be militarizing these 
features. There are these disputes over maritime claims in the 
South China Sea. Our view isn't to take sides on them. Our view 
is that everybody ought to resolve those peacefully and not 
militarize those features, China and anyone else who has done 
that, but China has done it far more than anybody else.
    Mr. Takai. Thank you. And I do agree, it is not consistent 
with U.S. objectives, and like you say, no one should be 
militarizing that area.
    So my question, then, is why, then, should we reward China 
with their aggressive behavior by including them in an event 
meant for allies and partners? China's behavior is the polar 
opposite, as you mentioned, of U.S. objectives in the region, 
and that is why I submitted a proposal to the NDAA [National 
Defense Authorization Act] that would prohibit China's 
participation in RIMPAC this year. I hope you and your 
department will reassess this situation and follow suit. Do you 
have any comment? Briefly. We have 10 seconds.
    Secretary Carter. No. We are constantly reassessing that. I 
gave you the logic for the invitation in the first place and 
will continue to reassess it in accordance with your letter.
    Mr. Takai. Thank you.
    The Chairman. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Last week, General Milley stated before the committee, 
quote, that less than one-third of the Army forces are at 
acceptable readiness levels to conduct sustained ground combat 
in a full-spectrum environment against a highly lethal hybrid 
threat or near-peer adversary. Obviously, this statistic is 
undoubtedly alarming and illustrates that the risk associated 
with a less-than-ready military force is unacceptable.
    All too often, we speak about military risk in terms of 
numbers and percentages as opposed to more real and tangible 
consequences. When asked a similar question last year about 
risk, then Chief of Staff, Army, General Ray Odierno, made 
clear that direct correlation existed between increased risk 
and loss of lives on the battlefield. Quite plainly, Odierno 
stated that people would die. While I apologize for my 
frankness, it is critically important that our colleagues in 
Congress and the general public clearly understand what is 
meant when you say ``risk.'' We are currently in the throes of 
our debate on the budget, and there are those who continue to 
say: We can accept increased risks; we can lower the costs; we 
can continue to accept sequestration or cuts.
    General Dunford, would you please help us better understand 
what you mean when you say ``risk''? Is there a direct 
correlation between risk and loss of lives on the battlefield? 
And, also, is there a direct correlation between risk and 
winning, knowing that we now have issues with Russia, China, 
North Korea, and certainly ISIS? Could you give us an 
understanding of how the word ``risk'' translates?
    General Dunford. Congressman, I can. First of all, there is 
a correlation between risk and casualties. And when I talk 
about risk against our objectives, I am talking about how long 
it will take and how many casualties we will suffer. Those are 
the two elements of risk that I refer to.
    You mentioned sequestration, and I will tell you what the 
risk of sequestration is. The risk of sequestration--and I am 
talking now the $100 billion that still looms out there--means 
that we would have to go back and actually rewrite our 
strategy, and I am talking about the ends of our strategy. So 
when you talk about winning, there is a correlation also 
between our ability to win against the current adversaries that 
we have identified, the peer competitors that we have 
identified, and sequestration. And my assessment is that we 
will not be able to deal with the five challenges that 
Secretary Carter and I outlined in our opening remarks, the 
Russia, China, Iran, North Korea, and violent extremism. Were 
we to go to sequester-level funding, I can't imagine us being 
able to satisfactorily deal with those five challenges and, by 
the way, the challenges that we can't foresee.
    Mr. Turner. Secretary Carter, when you were here last year, 
one of the things that you said was that it would be so 
important to get a 2-year budget deal. Many of us in Congress, 
including myself, who voted for it, believed we had a 2-year 
budget deal. We believed that we would be looking this year at 
the budgetary process with a fairly firm 574 commitment to base 
budget funding, which would result in stopping the cuts that 
the Department of Defense has been put to, but when we received 
the President's budget, the President indicated that there were 
increased overseas contingency operations funding that he would 
need for his operations, $3.4 billion for Europe, additional 
dollars for ISIS. And rather than putting those on top, meaning 
that they are additional things that the President would need 
to do, he took that out of the base funding of the Department 
of Defense. Now, we are having in Congress the debate putting 
those dollars back. And, again, it was unexpected, because that 
was not part of the 2-year budget deal that you advocated for 
and that we voted for and that we all thought we were operating 
under.
    Could you please tell us what the consequences are of the 
cuts that will happen to the base budget of the Department of 
Defense if we accept the President's budget, because clearly 
there are things that you are going to have to not do that you 
will get to do if we put that money back.
    Secretary Carter. Well, the President's budget reflects the 
bipartisan budget agreement. The numbers in the budget are the 
numbers in the BBA.
    Mr. Turner. Secretary Carter, I know you know that we 
completely disagree with you. I mean, Congress' expectation is 
that you had a base budget of 574. I don't think you would have 
supported a 2-year budget deal that would have had a cut to the 
base budget in year 2017. And my question is not really, what 
is the deal? My question is, what are you losing? Because you 
are obviously losing something from 574 with the reduction that 
the President has taken of about $13 billion out of the base 
budget for OCO operations.
    Secretary Carter. We are going to have to agree to disagree 
about that, about whether we budgeted to BBA, because we 
believe we did. However, to answer what I gather is part of 
your question, namely what did we do about the difference 
between what we said last year we intended to request this year 
and what we requested this year. I addressed that earlier. That 
was a $22 billion difference that, because of OCO and some 
other economic adjustments that went our way, like fuel prices 
and so forth, ended up being a net of $11 billion. And I 
explained exactly what we did to adjust and mitigate risk 
associated with that $11 billion. We cut a lot of minor 
procurement programs. We scaled back some of our aircraft buys. 
We took it out of MILCON. That is how we accommodated the $11 
billion. We can tell you in detail how that was done.
    And I also explained what we didn't do. We didn't go into 
military pay to make up that difference. We didn't go into the 
readiness recovery plans that the Chairman has described and 
that are so critical to restore our readiness, including full-
spectrum readiness for the Army and the other services. We 
didn't cancel any multiyear procurements or other major 
acquisition programs. And we didn't change any of our force 
structure targets, number of ships, Army end strength, or 
anything like that. We did what we did. We have described what 
it is. We believe that we were able to mitigate that risk, and 
that is what we did.
    Our biggest risk going forward--I will just say it again; 
we have said it many times--the biggest risk to us 
strategically in our defense is a return to sequestration, a 
collapse of the bipartisan budget agreement, and that is our 
biggest concern.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Secretary, last week, we were able to listen to 
testimony from Acting Secretary of the Army Murphy and General 
Milley. And Secretary Murphy said, to continue this line of 
questioning on risk begun by Mr. Turner, said something to the 
effect of this budget places the Army at high risk. And prior 
to that, General Milley had made that connection explicit 
between risk and the loss of the service members' lives who we 
will put in harm's way. We reduce risk, we reduce that loss of 
life. So there couldn't be anything more serious or grave for 
us to make a decision on.
    My question for you is, is that level of risk comparable in 
the other service branches? And what is your guidance to us as 
a committee going into the NDAA as a Congress that might look 
in the near future at supplemental funding to further mitigate 
that risk in this upcoming budget year?
    Secretary Carter. Well, first of all, let me completely 
associate myself with what Acting Secretary Murphy and General 
Milley said. That is our highest priority for the Army in this 
budget, is readiness. They both made that clear, I concurred in 
that, and that is why the Army's readiness recovery plan is 
fully funded in the budget.
    Now, what does that consist of? It gets back to the 
question earlier about full spectrum. In order to recover full 
spectrum--remember where we are coming from here is an Army 
that was working extremely hard in Iraq and Afghanistan to meet 
the rotational needs of a counterinsurgency battle, and they 
were being trained for that. Now they are trying to restore 
their training to full spectrum for the other problems that we 
highlighted among the five that we are highlighting in this 
budget. To do that, they need to pass through their training 
ranges, and those high-level training ranges have a certain 
capacity. We are building that capacity, but it is going to 
take some time for them to come out of it. And it is not going 
to just take time; it is going to take budget stability. That 
is why I keep coming back to the need for budget stability.
    And then the last thing in your question, the other 
services have comparable readiness issues. They are all 
different, but they are comparable in the following sense: all 
are trying to make long-term plans to get better in readiness. 
In the Marine Corps, it is particularly aviation, as the 
Chairman has pointed out. In the Navy, it is principally a 
maintenance issue, and they are working very hard on that. In 
the Air Force, it is, very importantly, and I think the Air 
Force leadership has indicated this and the chairman mentioned 
this as well, the very high OPTEMPO [operational tempo]. The 
Air Force is trying to train for high readiness. At the same 
time, we are working them very hard in the counter-ISIL fight 
and elsewhere. So it is a little bit different in each service, 
but there is a challenge in each case, and that challenge--and 
we have plans to improve readiness, but they can't be executed 
if we are returned to budget--to sequester levels.
    Mr. O'Rourke. Let me ask two followup questions to clarify. 
One, are we doing all we can do within this budget request to 
mitigate that risk? If not, what do we need to do? I would be 
happy to join my colleagues and you in making the necessary 
changes too. My understanding is that risk is a term of art in 
terms of what the service chief submits to the Chairman of the 
Joint Chiefs. And what I would like to know, is what we heard 
from the Acting Secretary and the Chief of Staff of the Army 
reflected in the other service branches? Yes or no, if we have 
less risk in those others, are there more resources to pull to 
address the high risk, which I understand is a term of art, 
that was disclosed to us in the hearing last week?
    Secretary Carter. Well, with respect to the first part, we 
have in this budget for 2017 done everything that the Army 
wanted to do. I completely support them to get on the path to 
restoring readiness. It can't be done overnight----
    Mr. O'Rourke. This is as much as we can do.
    Secretary Carter [continuing]. As I described. And so it is 
not a money issue. It is a money stability issue for the Army, 
and we have got to have that.
    And with respect to, ``does that translate into risk,'' 
yes. Does it translate into risk for the other services? Yes, 
it does. And is that reflected in how the Chairman and I and 
the rest of the Joint Chiefs and the service secretaries deal 
with risk in each service contribution to joint war plans and 
across joint war plans? Absolutely, it does.
    Mr. O'Rourke. Thank you. I am out of time.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary, what priority do you assign to the 
Department's nuclear deterrence mission?
    Secretary Carter. It is the bedrock of our defense. It is 
not in the news every day, thank goodness, but it is the 
bedrock of our defense. So having a safe, secure, and reliable 
nuclear deterrent is bedrock priority, and we give it the 
highest priority, and that is both in operating the force 
currently, and the subject was raised earlier about the need to 
keep a safe, secure, and reliable nuclear deterrent. The 
particular issue being raised was the submarine force. In the 
future, we will change out the Ohio for the Ohio-class 
replacement. That is a necessary evolution. It is a very 
expensive evolution, but we have to do it, because we have to 
retain a safe, secure, and reliable nuclear force as a bedrock.
    Mr. Rogers. Well, that leads me to my second question. Do 
you see the recapitalization of the nuclear deterrent as 
affordable in this budget environment?
    Secretary Carter. As I said earlier, particularly you can 
see it right now that the submarine recapitalization in the 
decades of the 2020s cannot be taken out of the rest of the 
Navy's shipbuilding budget without seriously crippling that 
shipbuilding budget. So we are going to need to make room for 
that. We have been saying that now for several years. You can 
see it. It gets nearer every year, but sure as shooting, we 
have to do that, and the reason is that the Trident submarines 
are aging out. It has to do with the stress on the hulls of 
submerging and coming up so many times. And they are going to 
have to be replaced. And that is the survivable part of our 
triad. It is absolutely essential. We are going to need to 
recapitalize it.
    Mr. Rogers. Great.
    General Dunford, are the Joint Chiefs convinced and 
unanimous that we must modernize the triad?
    General Dunford. Congressman, I am. I have not talked to 
the current group of Chiefs collectively, but previously, when 
I was the Commandant of the Marine Corps and we met with 
General Dempsey, my predecessor, the Joint Chiefs unanimously 
subscribed to modernization of the triad.
    Mr. Rogers. Great.
    General, your predecessor undertook an assessment of the 
Russian violation of the INF [Intermediate-Range Nuclear 
Forces] Treaty. He concluded it posed a risk to the United 
States itself as well as to the security of our allies in 
Europe. Do you agree?
    General Dunford. I do, Congressman. In fact, it reflected 
in the budget our capabilities to deal with just that threat.
    Mr. Rogers. Well, we have been waiting over a year to be 
briefed on the military options that you have in response to 
that. Can you assure me we will get that for my staff, me and 
the ranking member of the Strategic Forces Subcommittee, within 
the next 3 or 4 weeks?
    General Dunford. Congressman, I or my staff will come over 
and see you soonest.
    Mr. Rogers. I would appreciate that.
    Mr. Chairman, I would like to yield the balance of my time 
to my friend and colleague from Minnesota, Mr. Kline.
    Mr. Kline. I thank the gentleman for yielding.
    General Dunford, a couple of years ago, I was in 
Afghanistan, and you were the senior American commander there, 
and we had significantly more than 10,000 U.S. forces. In 
January, I was back in Afghanistan, and General Campbell was 
the commander there, and it was operating under a force 
management level of 9,800 troops. Now General Nicholson is on 
the ground there, and he is currently undertaking a review of 
the situation there to make his recommendations.
    If he were to come back after completing his review with a 
recommendation to change the force management level--I don't 
know who invented that term, by the way, but it bothers me a 
lot, because it is a strategy by political numbers--but if he 
were to come back and say, ``We need to increase that FML by 
some unspecified number, 1,000, 2,000 or something like that,'' 
and if he were to come back and say, ``We need to lift the 
restrictions that we are operating under that says I can't 
train and advise and assist below the Afghan corps level,'' and 
if he were to come back and say, ``I need the authority to 
unilaterally target the Taliban and the Haqqani network,'' 
would you support those recommendations going to the President?
    General Dunford. Congressman, first of all, General 
Nicholson is going to provide recommendations, and I know what 
the President has articulated as the end state, and I can 
assure you my recommendation, which will forward any 
recommendation that General Nicholson will make, will be 
benchmarked against my assessment of our ability to meet our 
objectives. That is exactly what I did when I was a commander 
on the ground and exactly what I would do in my current 
position.
    Mr. Kline. So you don't know whether or not you would 
support General Nicholson's recommendations if he came back 
with those that I just suggested?
    General Dunford. What I would make clear to the President 
in making a recommendation is whatever capabilities I believe 
are necessary, and I can't speculate as to whether General 
Nicholson will ask for an increase right now, Congressman, but 
what I would say is if he came in and said, ``These are the 
capabilities we need to accomplish the mission,'' and I agreed 
with General Nicholson's assessment, I would forward to the 
Secretary a recommendation that would include whatever 
capabilities are necessary for us to achieve the end state. Of 
that, I am clear.
    Mr. Kline. Thank you. My time has expired.
    Secretary Carter. Let me just second that.
    Mr. Kline. Thank you.
    Secretary Carter. That is the way it works.
    The Chairman. Ms. Gabbard.
    Ms. Gabbard. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here this morning and for 
your service.
    Secretary Carter and General Dunford, both of you talked 
about the threat of North Korea in your opening remarks. And I 
appreciate your leadership in maintaining the Department's 
focus both on current and emerging threats in the Asia-Pacific. 
I think North Korea's launch of their short-range missiles 
demonstrated just yesterday how serious and important this 
threat is, which must remain at the forefront as we look at how 
and where we are placing and investing our defense resources. 
Obviously, representing Hawaii, this is something that we are 
keenly aware of, as the threat from North Korea continues with 
their increased capabilities, as well as people on the West 
Coast who find themselves within range of their ICBMs 
[intercontinental ballistic missiles].
    Secretary Carter, you discussed the ongoing consultations 
with South Korea's hosting a THAAD [Terminal High Altitude Area 
Defense] system. Can you give us an update on those talks and 
can you also share the Department's commitment to continuing to 
increase and enhance our missile defense capabilities of the 
homeland? In particular, in Hawaii we have a test site for the 
Aegis Ashore at the Pacific Missile Range Facility, and I and 
others here on the committee are pushing toward 
operationalizing that to increase that protection.
    Secretary Carter. Well, thank you. And thank you for the 
role that the Hawaiian facilities do play in allowing us to 
develop and test our missile defenses. And we are doing a 
number of things to react to and protect ourselves and our 
people from the North Korean missile threat.
    Let me just back up a minute and say, you know, I talked 
about ``fight tonight'' on the Korean peninsula. We are 
absolutely committed to that. The Chairman and I pay attention 
to that every day. Again, that is not something that is in the 
newspapers every day, but our contribution to the defense of 
South Korea is very, very important and rock solid.
    On the missile defense front, we are doing things at all 
ranges. You mentioned Aegis Ashore, THAAD. And just to answer 
your question about THAAD on the Korean Peninsula, we are 
discussing that with the Koreans; we have an agreement in 
principle to do that. And I should say the reason for that, the 
reason for that is to be able to protect the entirety of the 
peninsula against North Korean missiles of greater range. That 
is why we want to add THAAD to what already exists there, which 
is Patriot, both South Korean and U.S. Patriot.
    Finally, to the homeland, it is with the possibility of 
North Korea having the capability to range the United States 
with ICBMs that we began several years ago to increase both the 
number of our ground-based interceptor system and also its 
capability. So we are increasing the number of those 
interceptors from 30 to 44. We are improving the kill vehicle 
on the front end, and we are adding radars to that. So we are 
doing a great deal. But, unfortunately, we have to, because we 
see, as you mentioned yesterday, the action of North Korea.
    Let me see if the Chairman wants to add anything to that.
    Ms. Gabbard. I would like to shift to both of your comments 
as well with regard to Ukraine and Russia. Much of the $3.4 
billion for the European Reassurance Initiative goes towards 
military funding and training and so on and so forth. In 
particular in the Ukraine, obviously, there are many challenges 
that they are facing kind of in their whole of government, but 
specifically within the military, we have seen time and time 
again how there is no tank-to-tank competition possible as 
Ukraine faces different threats coming from Russia. But can you 
speak to what kind of training we are assisting them with with 
regards to unconventional or special forces tactics and 
guerilla warfare, which can take a toll on what Russia is doing 
there?
    Secretary Carter. We are doing that. That is part of the 
support that we give to the Ukrainian forces, both against what 
you might call symmetrical or traditional kinds of combat 
operations, and also helping them with this unique brand, but I 
am afraid to say a here-to-stay brand of hybrid warfare that we 
have seen in Eastern Ukraine.
    Let me ask the Chairman to elaborate.
    General Dunford. Congressman, on that issue specifically, 
we have currently five conventional Ukrainian battalions going 
through training and one special operations unit going through 
training. Their training cycle will complete in September. I 
recently received an update probably assessed as some of the 
best, most effective training we have provided to the 
Ukrainians to date, and that is both the Ukrainian and U.S. 
perspective. Much of that training is informed by Russian 
behavior over the last few years and lessons learned in terms 
of integrating unconventional warfare, information operations, 
cyber capabilities, conventional capabilities. So I believe we 
are addressing that in our training program right now that is 
taking place with Ukrainian forces. And this is Ministry of 
Defense forces. Heretofore, we had trained just Ministry of 
Interior forces. This is the first cycle now of Ministry of 
Defense forces trained in these areas.
    Ms. Gabbard. Thank you.
    The Chairman. Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for being here. General Austin, 
CENTCOM [Central Command] commander, said to the Senate Armed 
Services Committee that additional capabilities are going to be 
necessary to take Raqqa and Mosul, including additional U.S. 
personnel, intelligence, logistics, other advise-and-assist 
teams.
    Do you agree with General Austin on the assessment that 
additional U.S. troops on the ground in Iraq and Syria are 
going to be necessary to take Mosul and Raqqa, and will you 
personally support that----
    Secretary Carter. I do. We already have. I expect us to do 
more, because we are looking for opportunities to do more. So 
General Austin is right. And, of course, all this is in support 
of the Iraqi Security Forces, but it includes support to the 
Iraqi Army, support to Sunni tribal forces, support for police 
training. By the way, it is not just U.S., but I have been 
getting coalition contributions as well. And as we assemble the 
forces to move on Mosul, we will be doing more. And when we 
have taken those requests to the President, as the Chairman 
said earlier, he has consistently granted those requests. And I 
expect there to be more in the future, because we want to get 
Mosul; we want to defeat ISIL in Iraq.
    Mr. Conaway. Well, we have got to have Raqqa as well. ABC 
is reporting that the----
    Secretary Carter. Yes, Raqqa as well.
    Mr. Conaway [continuing]. Brussels came out of Raqqa.
    Secretary Carter. Absolutely.
    Mr. Conaway. Let me pivot to something that is a little 
more mundane, but nevertheless important, and that is auditing.
    Secretary Carter. Yes.
    Mr. Conaway. I worry that--oh, by the way, Michael McCord, 
thank you for the report from your group on where everything 
stands right now. I don't necessarily want to go into the 
details of that, but thanks for getting that over to the 
committee in response to the NDAA.
    Can you talk to us about transition to a new civilian 
leadership team next year and the impact that might have on the 
affordable minimum with respect to getting this audit process 
done by the deadlines? I worry that the impact from, you know--
Leon Panetta started this deal; Hagel kept it up. Secretary 
Carter, you are full throated in favor of it. Are there risks 
that a new civilian team might not have the same emphasis?
    And, General Dunford, will you comment on the military's 
side of that issue as well?
    Secretary Carter. I am absolutely fully in support of it, 
and I thank you very much for your persistence and your 
leadership in inducing us to do this. And I also want to thank 
Mike McCord and his whole team for their role in it.
    You asked about the future. My guess is that this will 
continue, because the logic is quite clear. The necessity is 
quite clear, so I think that will be clear to people who come 
after myself and the Chairman. I am pretty confident that it 
will. It certainly should, and of course, you will have a role 
in helping remind them of this. There is a whole team behind 
this in all of our components, and I think they will--they are 
committed to this work. They will remain committed to this 
work.
    Chairman.
    General Dunford. Congressman, I could speak from both my 
current perspective and as a former service chief. I mean, I 
would tell you I really do believe that it is now part of our 
culture. And as you know, we have been at this now 4 or 5 years 
and worked pretty hard at it. And, frankly, I think the 
uniformed personnel that are involved in the audit process and 
the civil servants involved in the audit process are fully 
committed to actually coming back over here and laying on the 
table a clean audit. I mean, that is a bar they have set for 
themselves. And, again, I don't think the civilian transition 
that will take place this year is going to change the objective 
of the individuals who have been working so hard. Again, most 
of the folks that are doing the heavy lifting, they aren't 
going anywhere, and they are pretty clear about in their 
commitment to get this thing done.
    Mr. Conaway. Well, I appreciate that. And I hope our Senate 
colleagues during the confirmation process, whoever is doing 
that next time, will make that clear.
    And just to be sure, the resources necessary to move this 
forward are in this budget, the requests?
    Secretary Carter. They are.
    Mr. Conaway. General Dunford, did you want to comment on 
the need for additional U.S. troops to counter ISIL and 
actually defeat them in Mosul and in Raqqa?
    General Dunford. Yes. Congressman, I fully support the 
comments that General Austin has made and that the Secretary 
has endorsed. We have from the very beginning said that we 
would recommend whatever capabilities are necessary to maintain 
momentum and achieve the end state. And I do assess that to be 
successful in both Raqqa and Mosul and beyond, we are going to 
need additional capabilities. And at the right time, we will be 
prepared to provide that recommendation to the President.
    Mr. Conaway. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Mr. McCord, let me warn you, I promised Mr. 
Conaway, we are going to do a briefing or hearing on the audit 
issue, and it will be talking with you and the other folks 
about dates for that, but it is something that Mr. Conaway is 
going to stay on our case till we see it all the way through, 
and I think----
    Mr. Conaway. Thank you, Mr. Chairman.
    The Chairman [continuing]. A lot of us are committed to 
doing that.
    Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    As a representative from the Asia-Pacific area, I would 
like to start off by expressing my sincere sympathy for the 
people of Belgium and for the family of the marine killed this 
weekend in Iraq.
    I do know that Representative Takai already spoke on China 
and Representative Gabbard referenced North Korea. So, on Guam, 
we are considered the tip of the spear in the Asia-Pacific 
region, and I know the budget request contains nearly $250 
million for fiscal year 2017 military construction projects. We 
are seeing tangible development, such as facility construction, 
take place. So I am asking, Secretary Carter, what role the 
administration sees for Guam in the broader strategy; should 
Congress continue moving forward with construction on Guam? 
And, additionally, it is often said that budgets reflect 
priorities, and you spoke to the Senate Armed Services 
Committee last week about continuing to support the Asia-
Pacific rebalance strategy. So would you say that this strategy 
continues to be a priority of the administration?
    Secretary Carter. I can. And the Asia-Pacific is where half 
of humanity lives. It is where half of the economic activity of 
the globe is. It is the single region of greatest consequence 
for America's future. We can't forget that. And thank you for 
everything Guam does with us and for us and as part of us out 
there.
    Guam is a critical part of the posture improvements and 
strengthenings we are doing in the Asia-Pacific. I mentioned 
the part that we are doing unilaterally. That is very 
important. Guam is a part of that. We do a lot with partners as 
well, and there is so much momentum out there. Now, part of 
that momentum is caused, as I mentioned earlier, by Chinese 
aggression. But we are determined to meet it, and Guam is an 
important part of that. So thank you.
    Ms. Bordallo. Thank you. Thank you, Mr. Secretary. You've 
done so much for us. I thank you for your contributions.
    Also, I have another question for either yourself or 
Secretary McCord. It is estimated that the Defense Department 
spends nearly twice as much on service contractors as it does 
on civilian personnel, even though they are often doing the 
same work. Nevertheless, the Department's budget request seeks 
to cut civilian personnel and increase spending on service 
contracts.
    In this extremely constrained fiscal environment, can we 
expect to see the Department leverage the clear cost savings 
found in civilian personnel versus contractors? Are we still 
waiting for a complete accounting of all service contracts that 
was mandated back in 2008, but we have still not received the 
report?
    Secretary Carter. Thank you. I will just say at the 
beginning, then turn it over to Under Secretary McCord, we are 
committed to reducing the strength particularly of headquarter 
staffs, both civilian and contractor, and for that matter, 
military. That is where those numbers come from.
    And are we getting better at understanding how we are doing 
the spend for services contracting? Yes, we are getting better 
at that. The Deputy Chief Management Officer [DCMO] of the 
Department along with Mr. McCord work on that, and we are 
committed to meeting those targets. They are part of our budget 
outlook. If we don't keep working on tail, we are not going to 
be able to invest in the tooth. So it is an essential thing to 
do.
    And I ask if Under Secretary McCord wants to add anything.
    Ms. Bordallo. The contract.
    Secretary McCord. I would just add, as the Secretary said, 
we have the instructions both internal and from the Congress to 
hold down civilian and to keep commensurate with the drawdown 
of the military, and we recognize that mandate.
    And as he said also, we are looking hard at service 
contractors. The DCMO, Mr. Levine, is leading an effort. In 
fact, my turn is coming, I think, within the week to report to 
him within my own office, just like everybody else has to do, 
on what we are doing to review all of our service contracts to 
make sure they are still justified. And history has shown that 
just the sunlight of looking at that drives the cost down. You 
relook whether you really need everything that you are doing, 
and that is an important part of our efficiency effort for this 
budget.
    Ms. Bordallo. I only have a few seconds left.
    We still haven't received the report. Will we receive a 
report of some kind? This has been due since 2008.
    Secretary McCord. We will have to get back to you for the 
record on the exact status of the report. I don't have it at my 
fingertips.
    [The information referred to can be found in the Appendix 
on page 123.]
    Ms. Bordallo. All right. Thank you very much.
    And I yield back, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Secretary Carter, General Dunford, Mr. McCord, thanks so 
much for joining us today.
    General Dunford, in the previous hearings that the House 
Armed Services Committee has held, there has been a lot of 
discussion about readiness. And, obviously, for all of us, the 
concern about returning to full-spectrum readiness is at the 
very top of our list. I think General Milley put it best. He 
said: Readiness doesn't have a constituency. And I think that 
is why it is critical for members of the House Armed Services 
to make sure that we are the constituency for military 
readiness for our men and women in uniform.
    Tell me where we are with the current budget situation with 
where we project to be with the proposal in fiscal year 2017 on 
the path to restore readiness. We are right now just at the 
point of setting conditions to restore readiness. Tell us how 
far away we are and what milestones you expect to achieve in 
restoring full-spectrum readiness.
    General Dunford. Thanks, Congressman.
    With regard to 2017, we took inputs from all the services 
as to what they needed in fiscal year 2017 along their path to 
restore readiness, as you've outlined. And that was a priority 
for the Secretary. And so we fully resourced the service plans 
for readiness restoration. Keeping in mind that we knew we 
couldn't get to where we needed to be in 2017 because of the 
other elements associated with readiness recovery: One, 
operational tempo; the other the aspect of time.
    So with regard to where are we relative to where we need to 
be, three of the services have indicated that fiscal year 2020 
or 2021 would be where they would get to if we are not 
sequestered and we actually received the resources we project 
to receive.
    The Air Force is a little bit outside of that because of 
the unique challenges they have, and I think some of the 
numbers I have seen are as long as 2028, somewhere between 2024 
and 2028. So three of the services probably about 5 years away; 
one of the services may be 7 or 8 years away from full 
restoration of readiness.
    Mr. Wittman. Gotcha.
    Let me get your perspective on one of the elements of that 
readiness restoration, and that is aviation readiness. And when 
you paint the picture about full-spectrum readiness it is 
across the service branches. But one of the areas that really 
concerns me is the assessments that we are hearing about 
aviation readiness, and it starts with the Marine Corps and 
what they are trying to do to restore. And Lieutenant General 
Davis, I think, is doing all that he can.
    It is a pipeline issue; how much can we do, and how fast 
can we do it just based on capacity? But give me your 
perspective about where we are with aviation readiness across 
the service branches, and what can we do in the context of 
full-spectrum readiness to get there as soon as possible also?
    General Dunford. Thanks, Congressman.
    There are two issues: One is the state of the current 
aircraft that we have. And, again, we had some difficulty with 
depot-level maintenance and so forth associated with the last 
few years. And so we are in a trough with regard to the 
readiness of the platforms that are in the inventory right now, 
what we call ready basic aircraft.
    And although the Marine Corps perhaps is the most extreme, 
each of the services has similar challenges with regard to the 
ready basic aircraft for deployability, particularly those 
units that are in home station. We are confident that those 
units that are forward deployed have what they need. But those 
units that are at home station have a shortfall of ready basic 
aircraft.
    The path to address the maintenance issue, of course, is 
stable funding in the future, both for our depot-level and also 
for our local-level maintenance. The other issue is the 
modernization piece. Much of the reason we are where we are is 
we deferred modernization, and so the aircraft that we are 
flying is in the inventory longer than it needs to be. So there 
is really two pieces of this that are not unrelated, but they 
both come together.
    So my assessment of what we need to do is, one, we need to 
fully fund our depot-level maintenance and sustain the aircraft 
that are in the inventory; and, number two, we need to stay on 
path for the modernization plan we have to address the long-
term issue, which we really see manifest itself out in 2021, 
2022, and beyond.
    Mr. Wittman. I want to get perspective from both you and 
Secretary Carter as far as the concept of readiness restoration 
and looking at, how do we get to the point that we need to be? 
And you bring up, I think, an extraordinarily important point. 
Readiness as a term of art has traditionally represented 
training, operation, and maintenance. But I believe it also 
should reflect the element of modernization, because I think 
that is directly tied to readiness.
    I want to get your perspective on where you see 
modernization as part of the list of elements that must be 
attained in restoring readiness.
    Secretary Carter. For my part, you are absolutely right: 
training, maintenance are important parts of readiness. But in 
some forces, and you mentioned aviation, the real answer is the 
replacement of an aircraft that is now so old that it has cost 
too much to maintain, or we are simply not able to maintain 
them at the levels that--so the guys don't have aircraft to 
fly. We are seeing that with respect to the CH-53 in the Marine 
Corps. I am sure you are familiar with that. That is an example 
of it. Also, to take another Marine Corps example, the F-18s in 
the Marine Corps, the older versions of those. So modernization 
is a key part of restoring readiness.
    Chairman.
    General Dunford. I will be very quick. I think I am out of 
time, Congressman. But what I would say is this: I have talked 
about fiscal year 2017 as being sufficient. It is not 
everything we needed, and I subscribed to what the service 
chiefs have said when they came in. But my greatest challenge 
as I look in the budget in the future is the bow wave of 
modernization that is going to come in 2019, 2020, 2021. We 
talked about the nuclear enterprise, but, frankly, it is the 
whole inventory of joint capabilities.
    And we have had 4 or 5 years of deferred modernization 
right now. We have done the best we can to start to rebalance 
that in fiscal year 2017. It took us years to get to where we 
are. It will take us years to get out of where we are.
    But this modernization issue is tomorrow's readiness. I 
equate it to health and wellness. So today we are not as 
healthy as we would want to be, but we can get the job done. We 
are not investing in the health of the organization today, 
which will result in some wellness challenges down the road, 
which will read readiness.
    Mr. Wittman. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    And I just want to take a moment to also express my deep 
condolences and solidarity with our allies in Belgium, across 
NATO, and across the European Union. This morning's cowardly 
terrorist attacks were not only an attack on the people of 
Brussels but an attack against Europe and civilized people 
everywhere who condone such horrific acts of terror.
    Secretary Carter, in your written testimony, you lay out 
five evolving challenges that are driving the Department's 
planning and budget. And I want to focus on the fifth 
challenge: countering terrorism overseas and protecting our 
homeland. In your written testimony, you also outline three 
military objectives to defeat ISIL, and you say the third is 
the most important to protect the homeland again.
    With that in mind, please provide the specific steps the 
Department is taking to coordinate with its interagency 
partners to protect the homeland and what actions Congress 
needs to take to bolster those initiatives, funding, 
legislative.
    Additionally, you mentioned the development of DOD's 
transregional counterterrorism strategy. Could you describe the 
pillars of that strategy and how it complements current efforts 
to deny terrorists a safe haven from which they can train, 
plan, operate, and launch these kind of attacks, for example, 
here in the homeland?
    Secretary Carter. Certainly. And thank you for the 
question.
    I will start and then ask the Chairman to reinforce. You 
are right: our mission of protecting the homeland, which we 
need to do at the same time we fight overseas to defeat ISIL, 
is one we share with the Intelligence Community, with law 
enforcement at all levels, and also with Homeland Security. And 
we work very closely with them.
    Through NORTHCOM [Northern Command], we have a command that 
actually has precisely that mission, which is to protect the 
homeland by working with other interagency partners. We do 
that. We have plans to reinforce them if they request it. In an 
incident, we support them all the time with equipment, 
technology, intelligence, and so forth. And it is a two-way 
street. We work with them. It is a very smooth working 
relationship, and the Chairman can elaborate more on that.
    One thing I want to particularly ask him to elaborate on is 
your second point about transregional. One of the things that I 
am looking at in connection with the so-called Goldwater-
Nichols issue is strengthening the role of the Joint Chiefs of 
Staff and the Chairman in precisely this way, the transregional 
coordination. We have combatant commanders. They are excellent, 
but they are focused on particular regions.
    I look to the Chairman--and he does an excellent job of 
this--of balancing resources and making sure that the different 
COCOMs [combatant commands] are cooperating, both in NORTHCOM 
and the other combatant commanders. Let me ask him to 
elaborate.
    General Dunford. Congresswoman, to be specific, what we did 
back in November, we asked the Special Operations Command to 
take the lead, not from a special operations perspective but 
because they did have connective tissue in each one of our 
combatant commands, and they were capable of doing this.
    To begin the development of a transregional terrorism plan 
and countering violent extremism writ large, we have been 
working at that now for a couple months. We most recently had a 
meeting in The Tank on Friday afternoon where I convened the 
Joint Chiefs and all of our combatant commands to look at this.
    Critical to that is having a common operational picture and 
a common intel picture across all of our combatant commands, so 
that is the first part. The second thing is having an 
assessment process that integrates what all the combatant 
commanders see transregionally into a single vision that the 
Secretary of Defense can see.
    And then, as the Secretary alluded to at the end of his 
comments, a process to make recommendations for the 
prioritization and allocation of resources across all the 
combatant commands so that, much like we are trying to provide 
pressure across ISIL in Iraq and Syria, we are trying to do 
that transregionally at the same time. So we are very focused 
on that.
    You asked a specific question about, what are we doing to 
improve our interagency, and I would add to that interagency 
and international cooperation, which is very critical. Within 
the interagency, we meet routinely now and the Secretary and 
Secretary Kerry lead the effort. We meet routinely to do deep 
dives on issues like resourcing or foreign fighters or 
intelligence sharing.
    And with regard to our partners, we have a very promising 
initiative in Jordan right now where we have, I think we are up 
to 15 nations that participate in an information and 
intelligence exchange to help us just on the problem of foreign 
fighters. And so those kind of collaborative processes are 
really necessary.
    And to be honest with you, there is a lot of walls for us 
to break down in order for us to be effective. And that is what 
we are in the process of doing. And our transregional plan is 
designed not only to integrate our capabilities across the 
combatant commands but also with our coalition partners, and 
this plan will be borne with a coalition perspective in mind.
    Ms. Duckworth. Thank you. I am very interested in the 
Jordan initiative, and perhaps I will have my staff follow up 
with your office, if that is possible.
    Thank you. I yield back, Mr. Chairman.
    The Chairman. Mr. Gibson.
    Mr. Gibson. Well, thanks, Mr. Chairman. I appreciate the 
panelists.
    The attack this morning reminds us we are still at war with 
an evil, determined enemy that must be defeated.
    And earlier in the testimony today, we had discussion about 
restoring deterrence as well, peace through strength. And I am 
interested in hearing first from General Dunford. The RAND 
Corporation has published a study, Limiting Regret: Building 
the Army We Will Need, and here we are talking about the ERI 
[European Reassurance Initiative] initiative.
    And RAND concludes that we are going to need three armored 
brigade combat teams and associated forces to restore a 
credible deterrence. I am interested to know whether or not you 
agree with that assessment, and if you don't, then what you 
think is necessary to restore that credible deterrence.
    And then, for both the Secretary and for the Chief, I have 
a bill, a bipartisan bill, over 40 cosponsors now, the POSTURE 
Act, which stops the drawdown for the Army and the Marine 
Corps. That is the total Army, the Army, the National Guard, 
the Army Reserve, and the Active Duty Marine Corps and the 
Marine Corps Reserve.
    Assuming that that would come with the necessary resources 
for operations so that we don't hollow out the force and the 
complement of modernization that goes with it, I am interested 
in your assessment on how that would impact the risk that we 
currently have, given the fact that earlier in your testimony 
today, Mr. Secretary, you talked about where we are today was 
based on a series of assumptions which have changed.
    So how would this POSTURE Act, if enacted with the 
necessary resources so we don't hollow out the force, how do 
you assess that would impact the risk, and how might these 
additional land forces be arrayed to deal with things, such as 
the ERI?
    Secretary Carter. I will start. On the two issues, first, 
with the armored brigade combat teams, the Chairman can 
elaborate, and I don't want to go into our operational plans 
here. But we are developing our operational plans for the 
defense of NATO territory against both ordinary attack and what 
I called earlier hybrid warfare, and we are developing those 
plans and the requirements that come from them.
    I am not familiar with the particular report that you cite, 
but that is now a necessity as a consequence of Russian 
behavior, as I said in my opening statement.
    With respect to Army and Marine Corps end strength, the 
Chairman can speak to that also, and I am sure the chiefs have 
as well. But I will just, both in the Army and the Marine 
Corps, their emphasis to me in the preparation of this budget 
has been on readiness. And they have end-strength plans to come 
down from the levels that they were previously, and their 
priority is the readiness of the force not changing those end-
strength goals. I concur with that.
    Chairman.
    General Dunford. Congressman, we have made a down payment. 
You talk about what do we need in Europe, and, of course, it is 
not just about Army forces; it is the aggregate of joint 
capability. In the ERI, I think you know that we have an 
armored BCT's [brigade combat team's] worth of equipment at 
division headquarters, engineering equipment on other units 
that are part of our prepositioned stocks.
    We also pay for a constant presence of another brigade 
combat team that will be over there for exercises and assurance 
for our partners as well as deterrence. What the overall number 
is that we may have a year or 2 or 3 years down the road I 
couldn't speculate. I don't think the RAND study is wildly off 
base, but, again, to me, it is a function of not just looking 
at Army presence in isolation but looking at the aggregate of 
joint capability that will do what we need it to do, which is 
assure our partners as well as deter.
    With regard to the end-strength issue, Congressman, my 
greatest concern is, in fact, that we have balance in the 
force, and we have not only the right force structure, but we 
have the right capability. And you hit it exactly right: if we 
are going to grow the force, we need to make sure that the 
infrastructure supports that; we need to make sure that the 
manpower supports that; we need to make sure the equipment 
modernization supports that; and then the operations, the 
maintenance dollars that will allow us to train that force as 
well.
    So all of those levers have to be adjusted at the same 
time. Otherwise, the force gets out of balance. And that is why 
our focus this year was on capability over capacity. The reason 
is we felt like we were getting out of balance where we didn't 
actually have the right amount of training, the right amount of 
equipment in place to make sure the units that we had were at 
the highest level of readiness possible.
    Mr. Gibson. Well, thank you, General.
    And let me just say for my colleagues and for the American 
people watching at home for the record that we are on path to 
draw down our land forces to pre-World War II levels. We had 
General Milley here last week, and he describes the array and 
the mission set, and given the changes to the assumption as 
high risk and given the fact that when you turn this off, it 
takes 3 to 4 years to actually get the combat readiness 
restored, I think this bipartisan bill, we need to summon the 
will, get the resources, and get it enacted.
    And, with that, I know my time has expired. Thank you, 
Chairman.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here today.
    General Dunford, your statement warns of an expanding 
Iranian malign influence and increasing capability in the 
region. In your assessment, is Iran more or less capable today, 
militarily speaking, than they were the day the nuclear deal 
was signed?
    General Dunford. Congressman, I believe that Iran was 
spreading malign influences. They were capable of doing that 
before the agreement, and I think they are capable of doing it 
after the agreement. I haven't seen any measurable increase in 
their capabilities. But, again, I am under no illusion about 
what Iran's intent is, what their capabilities are, or what the 
current level of activity is across the Middle East.
    Mr. Scott. Have you seen any change in their behavior?
    General Dunford. I have not seen any specific change in 
their behavior, Congressman, with the caveat that they were 
spreading malign influence before the agreement, and they 
continue to do so.
    Mr. Scott. Absolutely, now they have $150 billion to help 
them spread it. And if there has been no change in the 
behavior, then certainly my concern is that the world is not 
more safe but less safe with them having that money.
    Just a couple of quotes from the President, if I may: 
Today, after 2 years of negotiations, the United States, 
together with our international partners, has achieved 
something that decades of animosity has not, a comprehensive 
long-term deal with Iran that will prevent it from obtaining a 
nuclear weapon. The deal offers an opportunity to move in a new 
direction, a different path, one of tolerance and peaceful 
resolution of conflict.
    Another quote, September 10 of 2015: This is a victory for 
democracy, for American national security, and the safety and 
security of the world.
    And then the budget that was presented, and I agree with 
the budget statement: Iran's malign activities in pursuit of 
missile technology continue to pose a threat to our interests 
and allies in the region. To combat those threats the budget 
continues efforts to hold Iran accountable for its 
destabilizing behavior by advancing preparations, posture, 
regional partnerships, and planning to preserve the President's 
options for any contingency.
    So one statement September, a budget statement 5 months 
later.
    Secretary Hagel--what is the Defense Department doing to 
mitigate what is a clearly growing risk from the Iranian 
ballistic missile program?
    Secretary Carter. Well, thank you for that.
    And you are right: the nuclear deal with Iran was about 
their nuclear weapons program and, if implemented--and we will 
know whether it is implemented or not--will keep them from 
having a nuclear weapon. That doesn't stop them from having 
other capabilities and exhibiting other behavior that concerns 
us.
    One of those is ballistic missiles. That is why we are 
strengthening our ballistic missile defenses in the region, in 
Europe, to defend our friends and allies there, our own forces 
there that are deployed there. That is why we have Aegis 
Afloat. That is why we have Aegis Ashore. That is why our other 
partners procured those same missile defenses from us, and that 
is why we help Israel with its defense against short-range 
rockets, both the Iron Dome system and the David's Sling 
system.
    They are also, by the way, developing the Arrow system 
against longer range missiles. We help them with that too. So 
we are doing a great deal in the missile defense area in that 
region.
    Chairman, if you have anything.
    Mr. Scott. If I can quote James Clapper, the Director of 
National Intelligence, what he said to SASC [Senate Armed 
Services Committee] on February 9: Iran probably views the 
Joint Comprehensive Plan of Action as a means to remove 
sanctions while preserving nuclear capabilities.
    General Austin, March 8, 2016: We have not seen any 
indication that they--meaning the Iranians--intend to pursue a 
different path.
    Now, I think he is talking about with regard to their 
malign activities, not specifically with nuclear, with regard 
to General Austin's statement there.
    But just a few things that they have done since then: Aside 
from what they did to our sailors, they have continued to test 
ballistic missiles. October 11, 2015, they tested a new 
generation of surface-to-surface missiles. The U.N. [United 
Nations] stated this test violated U.N. Security Council 
Resolution 1929.
    On November 21, 2015, they launched another medium-range 
missile. On March 8 of this year, Iran launched several 
missiles from multiple sites around the country. The Iranian 
general who commands the program stated: Revolutionary Guard 
Corps does not give in to threats.
    Secretary Carter.
    Secretary Carter. The nuclear agreement, and I said at the 
time that it was struck, hasn't changed our commitments in the 
Department of Defense at all. We remain postured and committed 
to defending our friends and allies, our own interests in the 
region, and countering Iran's malign influence in all of these 
areas.
    It is good if it is implemented, which it is being so far, 
at eliminating the nuclear danger. But for everything else, we 
remain full speed ahead and on course for what we were doing 
last year, the year before. And those programs are just 
building. I will see if the Chairman wants to add anything, but 
we have a major commitment there.
    Mr. Scott. My time has expired. But I just don't understand 
why we wouldn't have included other threats in any type of deal 
that gave them $150 billion.
    The Chairman. The gentleman's time has expired.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    I would like to, if we could for a second, talk about our 
current rules of engagement in our theaters of operation. I 
have service members who are leaving the military, and they are 
coming to me saying that this is dangerous. We are not able to 
engage in a way that will allow us to defeat our enemy.
    And I understand the need to try and keep down civilian 
casualties. I get that completely. But I have a concern that we 
are protecting our enemies more than we are those that we are 
sacrificing to try and save. And that is the real concern.
    Throughout our history, we have people that have given 
their lives so that others can live. And with what we see 
taking place, my concern is that every time we let an enemy go, 
because of our very restrictive rules of engagement, hundreds 
if not thousands of more innocents are killed. They become 
fatalities because of genocide. Are we really winning?
    And so I would like you to address our rules of engagement 
that I am hearing so many complaints about from our service 
members.
    Secretary Carter. We assess and reassess them all the time, 
including on a strike-by-strike basis. So your question is very 
apt, very appropriate, and we try to balance those things. We 
do it every day, and we do it in a very practical way.
    Dr. Wenstrup. Mr. Secretary, when was the last time we 
changed them?
    Secretary Carter. Geez, we modify them all the time. Let me 
ask the Chairman to explain.
    Dr. Wenstrup. Sure.
    General Dunford. Congressman, I would like to distinguish 
between rules of engagement and collateral damage. Those have 
been conflated a bit in some of the discussion. I have heard 
the same thing you have. And I want to make it clear on the 
rules of engagement, those are enduring.
    And any time one of our young soldiers, sailors, airmen, 
and marines is in harm's way, and it is a hostile intent and 
that you can positively identify an enemy, they can engage. 
That hasn't changed. There is no restriction on our ability to 
do what must be done to protect themselves.
    With regard to collateral damage, we make an assessment 
virtually every time we engage. And right now, we start with a 
baseline of zero civilians. But I am here to tell you, if we 
have a target that justifies an expanded view of collateral 
damage in a particular case, we will make that adjustment.
    So to your question, when was the last time we changed, I 
can't assure you that it was this morning, but I can assure you 
it was probably sometime in the last couple days where General 
Austin made a decision to expand the number of civilian 
casualties that might be incurred in a particular target given 
the importance of that target.
    What we have tried not to do is make enemies of the very 
people that we are trying to protect in places like Iraq and 
Syria. And we also try to make sure that, at the end of the 
day, we don't become the enemy. We are fighting with our 
values. And at the end of the day, 5, 10 years from now when 
this war is over, it will be because we won the war of values 
and the war of ideas, not because we dropped a bomb in one 
place or another.
    Dr. Wenstrup. I understand that is a very fine balance. I 
personally would give my life so my family could live, if that 
is what it came down to.
    My other concern comes to, are we in any way, shape, or 
form trying to work out an international or system of justice 
for those that we detain? We are not dealing with a Timothy 
McVeigh here with domestic terror, and we are not dealing with 
a World War II situation where at the end of the war we sign a 
peace treaty and return our POWs [prisoners of war]. We are 
releasing people from Guantanamo. Some are returning to the 
fight.
    Do we really have a formal system of justice? We are a 
country of laws, and we have a system of justice, and I think 
that is an expectation. And I haven't seen us going in that 
direction.
    Secretary Carter. Well, thank you.
    We have various possibilities for detention if we take a 
prisoner. There is law-of-war detention. There is detention by 
transfer to another country. We did that, for example, in the 
case of the Umm Sayyaf raid and Abu Sayyaf raid, where the 
custody became the Government of Iraq. And then we have the 
possibility of criminal prosecution in Article III courts, 
which has also been exercised by the United States, a number of 
convictions.
    With respect to Guantanamo, what you say is the reason why 
we are looking for--and I personally support this--a place to 
detain those people who are in Guantanamo Bay. Let me be clear 
about this. There are people in GTMO [Guantanamo Bay] that it 
will not be safe to transfer to another location. I won't sign 
off on their transfer to another location for just the reason 
you described.
    Dr. Wenstrup. I appreciate it.
    Secretary Carter. So that is why we need an alternative 
detention facility for law-of-war detainees. We need to be 
extremely careful about that, and that is why I would like to 
find an alternative location.
    Dr. Wenstrup. Well, I would also like to see a more clear 
system of justice rather than we could do one, two, or three 
things.
    But my time has expired. Thank you, sir.
    The Chairman. Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    And I want to thank our witnesses for appearing before the 
committee today. We certainly all greatly appreciate your 
service to the Nation and over the course of your very 
distinguished career, so we thank you for your service.
    Secretary Carter and General Dunford, over the past decade, 
the Department has had to reconcile the reality of a reemerging 
great power competition with the size and composition of our 
own military today.
    Secretary, I highly commend and am very supportive of your 
vision for the third offset strategy and look forward to seeing 
how that unfolds and look forward to being supportive as we 
make that transformation.
    Beyond that, as we evaluate the architecture of our future 
fighting force, what should the balance between the forward-
deployed power and sufficient surge Ready Reserve capacity look 
like across the services?
    Secretary Carter. Well, first of all, thank you for your 
support for our technology efforts, third offset, and so forth. 
It is an important part of planning for the future. I said, 
this is a budget that tries to turn a corner and, while dealing 
with today's threats, also look ahead 10, 20, 30 years from 
now, and particularly to high-end potential opponents that we 
haven't had to worry about as much in recent years. So thank 
you for your support for that.
    And I am sorry; the second part of your question?
    Mr. Langevin. Sure. Just saying that as we evaluate the 
architecture of our fighting force, what should the balance 
between a forward-deployed power and sufficient surge Ready 
Reserve capacity look like across the services?
    Secretary Carter. I will start and then maybe the Chairman 
can pitch in.
    It is important to have forward forces because they are the 
first edge of the response to a crisis, number one; number two, 
their being there is a way of working with friends and allies 
so we don't have to do everything ourselves. So it is an 
important part of our building partner capacity capability.
    But what deters is the full weight of the American military 
that would arrive on the scene after those initial forces had 
engaged. And I think that is what we--when we talk about 
deterring opponents, what deters them is not just what is right 
there in front of them; what deters them is the full weight of 
the American military that will arise.
    And so our surge forces are a critical part of the 
deterrent. And no one should measure our deterrent capability 
by what we have forward presence. That is an indication, but it 
is not the whole story.
    Chairman.
    General Dunford. Congressman, getting that balance right is 
dynamic. And to assure you, every year, we gather up all the 
combatant commanders' requirements for both the crisis response 
and assurance mission as well as what they need for major, 
major operations plan contingency.
    And so we make adjustments annually to make sure that we 
get that balance right between those forces that have forward 
deployed, forward engaged on a day-to-day basis, providing us 
access, making sure that we are prepared to respond to crisis, 
and also making sure that the residual capabilities and 
capacities on the bench, if you will, are prepared for a major 
contingency.
    So when you ask what is the right balance, it is a constant 
process of evaluation to make sure we do exactly what you are 
suggesting we should do, which is get that balance right.
    Mr. Langevin. Thank you, both of you.
    Going back to the third offset strategy--and, again, very 
supportive of that--and the technology game changing, and it is 
going to help provide us with the advantages that we need, 
especially on cybersecurity, which I have been a strong 
proponent on and other technologies.
    But, Secretary, how do you believe we can best direct our 
investments and our policies to ensure that the progress that 
we made toward achieving a third offset strategy is sustained 
into the next administration?
    Secretary Carter. Well, I think in this and in other 
matters, the strategic logic behind our investments this year, 
behind this 2017 budget, is intended to point the direction 
toward the future. So we have crafted it carefully. And I think 
that both--it is the needs it highlights in terms of the five 
challenges and what we have put in motion, especially including 
these technology efforts are so compelling that I am confident 
that they will continue into the future.
    Mr. Langevin. And Secretary Carter, I have been one of the 
biggest proponents of cybersecurity as a critical warfighting 
domain during my time in Congress. And I believe it is 
imperative that the services understand the cybersecurity 
requirements laid before them when it comes to much-needed DOD 
programs and weapons systems in order to avoid serious cost 
impacts and schedule delays.
    How are we managing cybersecurity at an enterprise level 
and incorporating cyber technologies into program requirements 
sooner? And I guess, we will have to answer that one for the 
record.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Secretary, if you would, please. Thank you.
    Mr. Langevin. Thank you. And I will yield back.
    The Chairman. I thank the gentleman.
    Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General Dunford, for being 
here.
    Mr. Secretary, just following up on Representative 
Wenstrup's question, but are you aware of any discussions to 
close the naval station at Guantanamo Bay or transfer it to 
Cuba?
    Secretary Carter. I am not, no.
    Mrs. Walorski. General Dunford, same question for you. Are 
you aware of any discussions to close the naval station at 
Guantanamo Bay or transfer it to Cuba?
    General Dunford. I am not, Congresswoman.
    Mrs. Walorski. Mr. Secretary, your department delivered a 
product in February entitled ``Plan for Closing the Guantanamo 
Bay Detention Facility.'' However, this document failed to 
address the specific elements required by the fiscal year 2016 
NDAA. Therefore, as this committee has previously stated, the 
requirement has not been met.
    In this document, there were three options outlined for 
handling future detainees. They were on a case-by-case basis: 
number one was prosecution of the military commission system or 
in Federal court; two, transfer to another country for an 
appropriate disposition there; or, three, law-of-war detention.
    Yet, in recent testimony, senior Department of Defense 
officials testified that--and I am referencing this article in 
Stars and Stripes--they testified there is a requirement for a 
long-term detention but, quote, ``they do not know where long-
term prisoners would be housed,'' which, I think this is very 
troubling testimony, Mr. Secretary, considering we currently do 
have a location.
    So my question is, prior to conducting an operation where 
capturing individuals is either intended or possible, do you 
have to determine which of these three options is appropriate?
    Secretary Carter. Generally speaking, we do and have and 
that has worked out. And with respect to the report, if I can 
just respond to that----
    Mrs. Walorski. Sure.
    Secretary Carter [continuing]. And the question of 
location. We were not specific about a location, and the reason 
for that is this: The optimal location for a law-of-war 
detention facility will depend upon several things that we 
don't know right now. For example, we don't know whether the 
Congress is going to respond to this idea. If we can do it 
quickly, then we will probably pick an existing facility and 
try to build on that. If we have----
    Mrs. Walorski. An existing facility in this country or----
    Secretary Carter. Yes. And if we have a longer period of 
time, we may build a new facility from scratch. It will depend 
upon the number of detainees that we have and that we plan for. 
It will depend upon the structure of the military commissions 
process, which is something which is set in statute, by the 
way.
    So the very reason that we have to discuss this with the 
Congress--and we submitted this plan. Because let me be clear, 
it is forbidden by law to do this now, so we need your 
concurrence----
    Mrs. Walorski. Oh, I understand. I am very familiar with 
the law.
    Secretary Carter [continuing]. About that. And the reason 
that the plan calls for a dialogue between us and the Hill is 
that we can't select the optimal design and, therefore, the 
optimal location and, therefore, fully do the costing until 
that conversation has been had, because you guys have a say----
    Mrs. Walorski. I understand.
    Secretary Carter [continuing]. In the design parameters of 
the ultimate facility.
    But I hope you will give it consideration. I have said--and 
I believe this--I think it would be good to put this on a path 
to being dealt with by the time the administrations change.
    Mrs. Walorski. I understand. And I apologize for 
interrupting. I guess, two things. You and I have talked about 
this for months. But two things: I think the American people 
look at this, as I do, as a very dangerous precedent; that we 
are looking at potentially bringing these terrorists with blood 
on their hands that have already killed Americans back to this 
soil, which I think is reprehensible.
    But, secondly, we were just reminded again with this 
bombing this morning in Brussels that there is an active war on 
terror. And I have been sitting here 3 hours, and the first 
question the chairman asked was about strategy and things that 
were supposed to be handed over to the Congress in February, 
and they still haven't. And I look at this kind of as the same 
thing, that we are still waiting for some kind of a detailed 
plan that the President said would be made available and you 
have too.
    My question is this: Is it possible that, due to such 
factors as bureaucratic obstacles, delays in timing, inability 
to negotiate with another country, that an opportunity to 
conduct a capture operation would be lost? Or, in other words, 
would this issue of not being able to have a place for future 
detainees--because of the President's desire to close 
Guantanamo and bring those terrorists here--ever inhibit a 
question on these attacks that we are doing with ISIL and 
engaging with them the issue of, like, let's not go there 
because we don't know, and we don't want these long-term 
prisoners?
    Secretary Carter. That has not occurred in my observation. 
Let me ask the Chairman.
    General Dunford. No, Congresswoman. And, frankly, that 
would be one of the first things that I would ask if we were 
asked to do something is--that is going to be part of the 
decision making to go after an individual--is, what is going to 
be the disposition of that individual?
    Mrs. Walorski. And what if the answer comes back? Because 
we know there are long-term situations now engaging. What if 
the answer comes back and says: We simply don't know? Or GTMO, 
because GTMO is an operation right now that is there?
    Thank you, Mr. Chairman.
    The Chairman. Mr. Byrne.
    Mr. Byrne. Thank you, Mr. Chairman.
    Mr. Secretary, obviously, we are here on a day of tragedy, 
tragedy for the Belgians, tragedy for the world. ISIS is now 
taking responsibility for the murders this morning. We had a 
marine that was killed last weekend in Iraq. I know you feel 
that personally. We have a law that we passed called the 
National Defense Authorization Act. It required you to submit 
to the Congress by February the 15th a plan for defeating these 
people.
    I know you told the chairman that it was imminent. The 
statute says you shall do it by February the 15th. You are in 
violation of the law. When an average American is in violation 
of the law, there are consequences. Would you care to explain 
to the committee why there shouldn't be consequences for your 
failure to follow a law that was signed by your President?
    Secretary Carter. Well, I already explained that that 
report will be in front of you imminently. With respect to the 
larger question----
    Mr. Byrne. Mr. Secretary, that is not my question. The 
statute says you shall do it by February the 15th. Do you not 
agree that you are in violation of that law?
    Secretary Carter. We are going to submit that report. It 
has taken some time. It is not just a department----
    Mr. Byrne. I am going to ask you again. Do you not agree 
that you are in violation of the law?
    Secretary Carter. We will have that report to you shortly, 
Congressman.
    Mr. Byrne. I don't think that is a satisfactory response. 
When we pass a law around here, it means something. Now, 
people's lives are at stake. You know that better than any of 
the rest of us.
    Secretary Carter. Well, the people's lives aren't at stake 
over a report.
    Mr. Byrne. Excuse me for a minute, Mr. Secretary. It is not 
too much to ask that you comply with the laws that we pass and 
the President signs.
    Secretary Carter. As the Chairman----
    Mr. Byrne. So it is not sufficient for you to say it is 
imminent. You need to give us a plan now.
    Let me ask you about another report. You are also required 
to submit when the President puts forth his budget a 30-year 
ship plan for the Navy. You didn't do that either. That is a 
statutory requirement. Why didn't you submit a 30-year ship 
plan?
    Secretary Carter. I don't know about the 30-year ship plan. 
We have a number of these statutory plans. We work on them very 
hard. There are many, many, many of them, Congressman.
    Let me ask Mr. McCord if he knows the status of that 
particular one, the second one that the Congressman raised.
    Secretary McCord. I believe it is in process also and is 
nearing completion.
    Mr. Byrne. Well, under the law, that was supposed to be 
submitted with the President's budget request. Now, the 
existing ship plan we have got calls for 52 littoral combat 
ships [LCS]. You have not amended that plan. You have requested 
40. The Secretary of the Navy has told us in this room he needs 
52. He has told us there is no study to change that. Mr. 
Stackley, his Assistant Secretary for Acquisitions, says there 
is no Navy study or analysis that would change that. You have 
no 30-year ship plan to change that, yet you've tried to 
unilaterally change it in the budget. What is your basis, if 
you have no 30-year ship plan that updates the 52 request, when 
there is no Navy analysis, what is your basis for reducing the 
ship request from 52 to 40 on the LCS?
    Secretary Carter. The basis is this, and this is something 
that we decided all jointly, and that the joint requirement--
that we were going to buy 40 and not 52 littoral combat ships. 
The littoral combat ship is successful. It is good at what it 
does. It is better than the mine countermeasure ships it 
replaces. It is better than the coastal patrol craft it 
replaces. But 40 is enough.
    And the reason we made that decision is that we thought--we 
believe and were convinced that the money is better spent on 
ships that are more capable. We are looking for more capable 
and lethal ships as well as more ships in the Navy. And we also 
added----
    Mr. Byrne. If the Navy has no analysis on that, where's 
your analysis? Do you have a report?
    Secretary Carter. We did an analysis in the course of----
    Mr. Byrne. Where is it?
    Secretary Carter [continuing]. Of preparing the budget. We 
did a lot over the course of the last summer, and we can 
provide that to you.
    Mr. Byrne. Shouldn't it be in that ship plan?
    Secretary Carter. We can provide that to you. But the point 
I am making is a very important strategic one, which is we need 
ships that are more capable and more lethal and more high end. 
That is one of the themes of this whole budget. So exactly the 
point you are raising is one of the very themes----
    Mr. Byrne. Mr. Secretary, if that is so important, why 
wouldn't you give us a new ship plan? Because your old ship 
plan, the one----
    Secretary Carter. I am sure the shipbuilding plan will 
reflect that.
    Mr. Byrne. You were supposed to give it to us when the 
President's budget was submitted. Now, you and your staff may 
not think these laws are important, but they are.
    People wonder why the people of America are angry right 
now. They are angry because people in Washington feel like they 
are above the law. And none of us, Mr. Secretary, I am not 
above the law, and you are not above the law. Give us a plan 
for the Middle East and give us some sort of analysis that is 
different from the Navy's analysis on reducing the LCS request 
from 52 to 40.
    And I yield back.
    Secretary Carter. We will provide those reports.
    The Chairman. Ms. McSally.
    Ms. McSally. Thank you, Mr. Chairman. And thank you, 
gentlemen.
    Secretary Carter, could you just prioritize--I know you 
have a lot of choices to make and priorities to make--low, 
medium, or high, the fight against ISIS, the military fight 
against ISIS in the next 5 years?
    Secretary Carter. Oh, that is extremely high.
    Ms. McSally. How about the priority of ensuring that if we 
do send our troops into harm's way, that they have the best 
capability overhead for close air support should they come 
under fire?
    Secretary Carter. Close air support is a critical part of 
the joint capability.
    Ms. McSally. So high as well? Great.
    How about if we have an American who has to eject or is 
shot down or an isolated personnel and they need the best 
capabilities overhead for combat search and rescue to be able 
to get them out of there. Low, medium, or high?
    Secretary Carter. Well, combat search and rescue is a must 
have everywhere we have forces deployed.
    Let me ask the Chairman if he has----
    Ms. McSally. Just in general. That is just the context. I 
think you would agree high, right?
    General Dunford [continuing]. Right----
    Ms. McSally. So I am pleased to see that you are choosing 
not to mothball any A-10s in this fiscal year, but I am deeply 
concerned about the 5-year plan based on you sharing that those 
priorities are all high. We have mothballed the equivalent of 
four A-10 squadrons since 2012. We have only nine remaining, 
and there are actually less airplanes in them than they used to 
have.
    The squadron I commanded used to have 24, and now they are 
down to 18. They are currently in three theaters, South Korea, 
Europe, and in the fight against ISIS. And I think you saw that 
firsthand.
    I am confused about some statements and really 
contradictions in the 5-year plan, so I just want to see if I 
can figure this out. The F-35 requirements document says that 
the A-10 will be replaced by the F-35. The F-35 is supposed to 
replace the A-10. That is part of the requirements document.
    We have highlighted over the last year--I have--in many 
hearings concerns about shortfalls. We need a fifth-generation 
fighter. But when it comes to close air support, the F-35 
having shortfalls in loiter time, lethality, weapons load, the 
ability to take a direct hit, the ability to fly close combat 
and be able to survive, and their night capability and their 
digital targeting capability.
    Because of that, your [office of] Operation[al] Test and 
Evaluation has agreed to do a fly-off between the F-35 and the 
A-10 as part of the evaluation of the F-35, which we were glad 
to see, because we are concerned that this space is going to 
have increased risk until we see if there is a proven 
replacement.
    But in your budget, you say that the A-10s will be replaced 
squadron by squadron by the F-35s. So that seems to me that the 
outcome is being predetermined. That is my first concern. We 
are yet to have a fly-off. We think that is going to happen in 
fiscal year 2018 or 2019, yet you are saying that we are 
predetermining the outcome that the A-10s will be replaced 
squadron by squadron by the F-35.
    Similarly, we have the Air Force leadership, when asked in 
a March 3 hearing--and then I followed up last week--basically 
said the F-35 is really not going to replace the A-10. That is 
going to be more the F-16 and the F-15E, which contradicts the 
requirements doc and contradicts your own statement.
    If you look at the Air Force's 5-year plan, they are going 
to put 49 A-10s in the boneyard in fiscal year 2019, another 49 
in fiscal year 2020, 64 the year after that, 96 the year after 
that. Basically, they are getting rid of the A-10. But the fly-
off isn't going to happen until at least fiscal year 2018. We 
won't be able to see the outcome of whether we are going to 
have a decrease in capabilities until at least a couple years 
down the line.
    So I am just concerned about these contradictions. The Air 
Force recently is saying that manning is their challenge, that 
this is their newest excuse as to why they need to be starting 
to put the A-10 in the boneyard, talking about how they just 
don't have the manning.
    And yet last we looked at, we have got hundreds of people 
that are playing the tuba and the clarinet wearing the uniform 
as opposed to core military capabilities. If we really had a 
manning crisis, from my perspective, we would tell people to 
put down the tuba and pick up a wrench or a gun, but we are not 
at that place.
    So I am just concerned with where we are right now in these 
conflicting statements. So I just ask you, General Dunford, do 
you think that if we put the A-10 in the boneyard before we 
have a proven tested replacement for these high-priority 
missions, will there be a risk to American lives?
    General Dunford. Congresswoman, what we need in the joint 
force is the ability to deliver close air support effectively. 
That is, as you know, it is not just a flat formation; it is a 
training issue and so forth.
    Ms. McSally. Right.
    General Dunford. So as the advocate for close air support 
and joint capabilities, I absolutely believe that we need a 
transition plan, and there needs to be a replacement for the A-
10 before it goes away. There is no question.
    Ms. McSally. So that means you don't agree with us putting 
it in the boneyard before we even assess whether the F-35 would 
replace it?
    General Dunford. What I don't agree with is getting rid of 
a capability without replacing it. And what I can tell you, 
without going into great length, is we recently met with all 
the chiefs--General Welsh was there--to take a look at the 
issue of close air support as a whole and to make sure that we 
are looking carefully at the platforms that are being 
introduced, what capability gaps will exist, how do we mitigate 
those gaps, and from that, if we can't mitigate the gap, how 
does that inform the program in the future.
    So I can tell you that the interest that Congress has 
generated quite a bit of interest inside the Department. And 
again, as the proponent for joint capabilities, I can assure 
you I will look at this from a close air support perspective to 
make sure the joint force has the close air support capability 
that it needs to have.
    Ms. McSally. Thanks. My time has expired, but I just want 
to say, I believe we need a conditional-based replacement not a 
time-based replacement; that we shouldn't be putting any more 
of these in the boneyard until the fly-off is done and A-X [A-
10 replacement aircraft] is developed; and we make sure that we 
are not putting more American lives at risk.
    The Chairman. Mr. Coffman.
    Ms. McSally. Thank you, Mr. Chairman.
    Mr. Coffman. Mr. Chairman, General Dunford, first of all, 
thank you all for your service to our country.
    General Dunford, how would you assess our combined arms 
capability today that we have been involved in 
counterinsurgency warfare for quite some time, although we are 
more to an advise and assist role. But I am concerned about 
just the fact that we haven't trained for some time. And how 
would you make that assessment?
    General Dunford. Congressman, there is no question that 
over the course of almost a decade involved in primarily 
counterinsurgency operations, the joint force's ability to 
integrate combined arms at the high end eroded. We are probably 
about 2\1/2\ years or 3 years into focusing on that once again.
    Are we where we need to be? No, we are not. And that is 
exactly why we are focused on both restoring full-spectrum 
readiness as well as making sure our exercises regenerate the 
kind of capability that we had some 10 or 15 years ago, that we 
are all confident that we had 10 or 15 years ago.
    Mr. Coffman. Thank you.
    Mr. Secretary and General Dunford, I am concerned that--I 
would hope respectively that we would take a harder look at 
shifting more capability to the Guard and Reserve and also not 
allowing them to lapse into being a strategic reserve and to 
somehow maintain them as an operational reserve.
    Now, take a look at their training requirements, take a 
look at potentially mobilizing them on a periodic basis even in 
a peacetime role to maintain their effectiveness. But I think 
that we are not taking a hard enough look prospectively at 
being able to more cost-effectively maintain our capability but 
to utilize the Guard and Reserve more. And I wonder if both of 
you could comment on that.
    Secretary Carter. I concur with you that we need to do more 
thinking. We are doing more thinking. I think that the simple 
dichotomy between an operational reserve and a strategic 
reserve made sense in the Cold War. I think the Reserve 
Component proved its versatility in the course of the years of 
war in Iraq and Afghanistan and is proving uniquely valuable in 
some particular areas.
    I mentioned cyber earlier. That is very important. That is 
not a niche. It is not exotic. It is a critical part of our 
future. And so I think being creative and effective about the 
use of the Reserve Component for strategic effect, not as a 
strategic reserve in the old Cold War sense, absolutely. We are 
thinking that way, and we need to continue to think that way.
    Chairman.
    General Dunford. Congressman, one of my responsibilities on 
behalf of the Secretary is global force management. And I can 
assure you right now in virtually every place where we are, the 
joint force, the Guard and Reserve are fully integrated into 
that. And, of course, as you know, the difference between a 
strategic reserve and the operational reserve is that we 
wouldn't typically be using them to meet the kind of 
requirements that we are meeting today.
    But you can go to South America today. I was there last 
week. Guard and Reserve are down there doing partnership 
capacity. You can go to Africa. You can go to Asia. You can 
look at BCTs [brigade combat teams] that are being mobilized to 
participate in operations, elements of BCTs to participate in 
operations in Iraq and Afghanistan.
    So I would tell you today the Guard and Reserve are fully 
integrated in meeting all the commitments that the joint force 
has. And I would envision that to be the case in the future, 
not just because it helps to maintain effective Guard and 
Reserve but because we actually can't meet our requirements 
without fully integrating the Guard and Reserve into our 
overall force management processes.
    Mr. Coffman. Thank you.
    I do think that there are--when I look at the personnel 
cost differences between an Active Duty soldier and Guard and 
Reserve member, nondeployed, that they are fairly 
extraordinary. And so whatever we can do, I think, to be able 
to save money but maintain capability I think we really need to 
take a look at going forward.
    I think the last question, in your view, this attack in 
Belgium, is it a result of the fact that we are making gains in 
Iraq and Syria in terms of rolling back ISIS and ISIS needs to 
maintain the narrative of being ascendant in order to attract 
recruits and money from across the radical Islamic world in 
that this is a way to maintain that narrative by striking 
outside their territory?
    General Dunford. Congressman, I can't say whether this 
particular attack is a result of that, but we have always said, 
and we anticipate, that as we put increased pressure on the 
enemy in Iraq and Syria and their narrative begins to erode 
because their freedom of movement erodes, the resources erode 
and so forth, that they are going to lash out and conduct 
terrorist attacks.
    And so we would expect the kinds of things we saw in 
Belgium to be a result of pressure that they feel in other 
places. There is no question about it. They will balance 
conventional tactics, which we have seen from the enemy, with 
guerilla tactics in places like Syria and Iraq when they are 
not as successful, with terrorist attacks around the world to 
maintain relevance and to continue to jihad. There is no 
question about it.
    Mr. Coffman. Thank you, Mr. Chairman.
    I yield back.
    The Chairman. I thank the gentleman.
    If you all will allow me, I have got just a couple issues I 
want to touch on right quick.
    Mr. McCord, we have talked a lot about readiness and 
training and maintenance. It is true, is it not, that virtually 
all the money for training, for maintenance of aircraft and so 
forth, is in the base part of the budget?
    Secretary McCord. That is correct. The vast majority is, 
Mr. Chairman.
    The Chairman. Yeah.
    Secondly, my understanding is, as you all were putting 
together your budget request, over $5 billion of that request, 
$5 billion worth, was savings, inflation and especially fuel 
savings. Now, obviously, the price of oil goes up and down, and 
you have a very long period when you have to formulate your 
budget.
    My question is, as you look at it today, how do your 
assumptions on the price of fuel measure against the reality of 
today?
    Secretary McCord. For----
    The Chairman. Is it better or worse than you assumed?
    Secretary McCord. It is better today. Are you talking most 
about fiscal year 2016 or 2017?
    The Chairman. 2017.
    Secretary McCord. For 2017. The prices that we were 
directed to assume are higher than what are prevailing today. 
As you note, that fiscal year hasn't even started and won't 
start for some time, and it will go a year after that. So there 
is a long time for these prices to have to hold before such 
savings would actually be realizable. But, yes, they are lower 
today.
    The Chairman. Well, I just am a little concerned that there 
are assumptions built in the budget. And nobody knows what the 
price of oil is going to be, although it has been going up some 
in recent days. But as you point out, this doesn't even start 
until October 1. I was just wondering how it measured up.
    10 U.S.C. 153 requires that the Chairman of the Joint 
Chiefs provide a risk assessment to Congress by February 15. We 
heard from the service chiefs that they have provided that 
input to the Chairman. My understanding is it has been done, 
and it is sitting in OSD [Office of the Secretary of Defense] 
somewhere. Do you all have any clue about when this might be 
coming?
    General Dunford. Mr. Chairman, I can answer that. We did 
complete it some time ago. What we wanted to do was bring the 
chiefs together in The Tank to discuss it with the Secretary. 
We did that a week ago Monday. And so we now have that to the 
Secretary and that should be coming over right away. I mean, it 
is complete.
    We worked on it pretty hard this time, Mr. Chairman. And 
what you will see is a different organizational construct. We 
tried to take a look at each of the five challenges we have 
spoken about and really get after in a meaningful way the risks 
associated with each one of those five challenges and then what 
I would call a crosscutting risk of the joint force.
    So while it has been a couple weeks late now, I hope you 
will find it worth it. And, again, one of the reasons why we 
kept it a little bit longer was so we could have an opportunity 
to do a face-to-face with the chiefs and the Secretary, and we 
did complete that last Monday.
    The Chairman. Well, I do think this is important, and so I 
look forward to it. It is significant for the committee.
    If I can just make an offer again to both of you, it has 
been one of my goals--and I have certainly not been as 
successful as I wanted to--to reduce the paperwork burdens that 
Congress puts on the Department, so fewer reports, if a 
briefing can be done, a one-time report rather than a recurring 
report.
    I would offer, again, if you all want to submit to us 
reports that you think are superfluous or overly burdensome, 
not worth the time and effort, get me that. And I will 
definitely look at it, because I want to continue to reduce the 
unnecessary or less-than-necessary paperwork burdens that 
Congress puts on the Department.
    At the same time, as you have heard today, what is left we 
are serious about. And so time is important. Again, we talked 
about the ISIS report, come up with reprogramming requests. We 
don't have a strategy on where it is happening. So I am trying 
to have fewer things but be serious about the ones that we 
have.
    Please tell me and get it to me about things you think are 
unnecessary. But at the same time, as you have heard some of 
today, I think there is frustration when the law is not 
complied with.
    Finally, General Dunford, I saw an open letter--I don't 
know--signed by several dozen retired military, other notable 
names, that the time was right to relook at Goldwater-Nichols 
of 30 years ago and that we needed to be serious that 
significant changes were in order, although they did not detail 
what those changes should be, by the way, in the letter.
    So I want to ask you your view. I know there is a fair 
amount of interest about examining and perhaps modifying the 
Goldwater-Nichols requirements. Please tell me where you think 
we are on that, if it needs to happen, and then suggestions you 
may have.
    General Dunford. Thanks, Chairman.
    First of all, I do think there is an imperative for reform 
at this time, and I think it is a result of a change in the 
character of war. The basic nature of war, in my estimation, 
doesn't change. The character of war has changed. And by that 
specifically, I mean that most of the crises and contingencies 
that we have today, immediately transregional; they cut across 
multiple combatant commands. They are multidomain: sea, air, 
space, cyberspace, undersea. And they are multifunctional: 
ballistic missile defense, special operations, strike 
capabilities, and so forth. And that has changed the nature of 
integration of the joint force and, frankly, the requirements 
for the Secretary to make timely decisions in a transregional, 
multidomain, multifunctional fight.
    So I think the more fundamental areas that we need to look 
at for change with regard to Goldwater-Nichols is, number one, 
making sure that the Secretary does have the ability to make 
decisions in a timely manner and making sure he does have the 
ability to integrate the joint force in that transregional, 
multidomain, multifunctional fight.
    It also requires, in my estimation, the Joint Staff to take 
a different approach to strategy and to ensure that we write 
strategies for, for example, the problem sets we spoke about 
today. So it isn't just an aggregation of operations plans if 
you are dealing with a Russia or a China, but you have a 
strategic framework within which those operations plans are 
met. And I think the National Military Strategy needs to be 
refined in order to provide that framework within which OPLANs 
[operations plans] are developed.
    And then the final piece of that in execution is the 
Secretary's ability to prioritize and allocate resources in a 
timely manner for a fight that is ongoing in multiple combatant 
commands at the same time. So, from my perspective, as we think 
about reform, we should focus on the character of war and what 
reforms are necessary to make sure we can fight in the 21st 
century.
    And what I have alluded to are some fundamental changes in 
warfighting in the 21st century that I think we can reinforce 
and optimize the joint force's ability to meet with some very 
fundamental changes. And I am prepared to make those 
recommendations to you, Chairman.
    Secretary Carter. And may I just second that. That is 
exactly along the lines that we are thinking, Chairman, as I 
alluded to earlier. Obviously, we will need your support if any 
of that requires statutory change, but those are the dimensions 
to which I am looking to the Joint Staff and the Joint Chiefs 
of Staff, and especially the Chairman of the Joint Chiefs of 
Staff, given the changed nature of warfare. We would like to 
strengthen that.
    The Chairman. Well, I am anxious to see what you suggest, 
even if it is not all the reforms that some of these other 
folks are pursuing. But, obviously, with markup basically for 
this committee about a month away, for us to have time to look 
at it, we will want to see it promptly.
    Secretary Carter. I am planning that, to do that quite 
soon, and it will involve the capabilities, the Joint Chiefs of 
Staff and the Chairman, while preserving the independent 
military advice that they provide to me and the President.
    The Chairman. Okay. Good. Thank you. Thank you, all three, 
for being here today. The hearing stands adjourned.
    [Whereupon, at 1:07 p.m., the committee was adjourned.]

     
=======================================================================


                             A P P E N D I X

                             March 22, 2016

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 22, 2016

=======================================================================

      

      
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 22, 2016

=======================================================================

      

             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO

    Mr. McCord. During the House Armed Services Committee hearing on 
March 22, 2016, you asked about a report which was requested in the 
National Defense Authorization Act for Fiscal Year 2008 (Public Law 
110-181). A member of your staff, Mr. Jason McMahon, confirmed section 
807 as the item of interest to you. The Department produced section 807 
reports for FY2009, and every subsequent year up to and including the 
report for FY2014. The reports and accompanying data are posted on the 
Department's Acquisition, Technology and Logistics (AT&L) public 
webpage:
    http://www.acq.osd.mil/dpap/cpic/cp/
acquisition_of_services_policy.html
    The files are large, because they contain the report and the 
inventory listing of service contracts. The inventory data for FY2015 
is posted, but the report is not yet finished. The reports are usually 
finished in July or August for the previous year's data.
    Every year when complete, these reports and the corresponding 
inventory listings are sent to the defense committees, the Speaker of 
the House and President of the Senate. They are then posted on the 
website above. A Federal Register notice is also published to notify 
the public of the update.   [See page 38.]

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 22, 2016

=======================================================================

     

                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. The Director of National Intelligence recently 
testified to Congress that ``Russia and China continue to pursue weapon 
systems capable of destroying satellites on orbit, placing U.S. 
satellites at greater risk in the next few years.'' 1. Please describe 
the foreign counterspace threat. 2. Can you confirm that Russia and 
China both have or have tested ASAT weapons launched by ballistic 
missiles?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Lamborn. You said in a recent speech in San Francisco that 
``DOD must now prepare for and seek to prevent the possibility of a 
conflict that extends into space, and we are.'' What exactly is the 
Department doing to prepare for such a conflict, from resourcing and 
training to developing operational capabilities? What is at risk if we 
lose our space capabilities early in a conflict, and how will this 
affect our ability to fight and win wars?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Lamborn. Secetary Carter said in a recent speech in San 
Francisco that ``DOD must now prepare for and seek to prevent the 
possibility of a conflict that extends into space, and we are.'' What 
exactly is the Department doing to prepare for such a conflict, from 
resourcing and training to developing operational capabilities? What is 
at risk if we lose our space capabilities early in a conflict, and how 
will this affect our ability to fight and win wars?
    General Dunford. Space is essential to the defense of the homeland, 
allies, and interests abroad. Space-based capabilities such as 
positioning, navigation, and timing signals; protected and secured 
communications; and strategic and theater missile warning underpin 
Joint Force operations. Our space systems increase our Joint Force's 
overall efficiency and effectiveness while helping to reduce risk and 
limit losses. The Department is working to ensure that the United 
States does not cede the space domain and that we maintain our access 
to, and freedom of action with, space-borne capabilities. Initiatives 
include the development of Joint doctrine for space operations, and 
ways to increase space system and architecture resiliency and 
survivability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. How does DOD intend to ensure notifications of released 
sex offenders reach the appropriate local law enforcement jurisdiction 
personnel where that offender intends to reside?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Ms. Speier. How will the Director of Emergency Services (DES) or 
Provost Marshals Office account for sex offenders on post?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Ms. Speier. How do you plan to track offenders who served no 
confinement time?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Ms. Speier. How do you intend to track offenders in States that do 
not utilize the SORNA Exchange Portal?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Ms. Speier. How do you plan to comply with International Meagan's 
Law (IML) as it applies to sending dependents overseas that are 
convicted sex offenders?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Ms. Speier. For purposes of uniformity and continuity, it makes the 
most sense to have a universal set of policies/practices across all 
services that is managed by OSD and not the service component heads. 
Can you explain to the committee why DOD has chosen to maintain 
differentiating regulations, policies, and practices in each of the 
service branches?
    Secretary Carter. [No answer was available at the time of 
printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. COFFMAN
    Mr. Coffman. Secretary Carter recently stated, ``We don't want a 
draft . . . We don't want people chosen for us. We want to pick people. 
That's what the All-Volunteer Force is all about. That's why the All-
Volunteer Force is so excellent.'' He also recently noted that one-
third of Americans aren't eligible for military service for various 
reasons. Given the quality and the success of the All-Volunteer Force, 
do you believe maintaining the selective service system in its current 
form is necessary as a matter of defense policy?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Coffman. Since 2009, the Army has separated at least 22,000 
combat veterans who had been diagnosed with mental health disabilities 
or traumatic brain injury for misconduct. These discharges have 
significant impact on those veterans' eligibility for benefits and 
services from the Department of Veterans Affairs, including mental 
health services. The Department has instituted several changes to its 
discharge process to prevent the improper separation of service members 
suffering from PTSD, but I believe many are still falling through the 
cracks, and thousands more were discharged prior to the Department's 
changes. I also believe that this situation applies to all of the armed 
services, not just to the Army. From the DOD perspective, do you 
believe that the discharge review boards should be more friendly to 
veterans appealing their discharge on account of PTSD diagnosis? And if 
so, do you have any specific proposals?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Coffman. Currently, veterans of the National Guard and Reserve 
forces are disproportionally denied on their VA claims for service-
connected disabilities. I believe a major reason for this is the fact 
that the services can decline to provide them separation physicals, 
which are actually mandatory for Active Duty members. Do you believe 
that end-of-service physicals should be permitted for National Guard 
members and reservists of all branches of service if they'd like a 
physical to document any service-related injuries or disabilities? How 
do you ensure that Guard and Reserve members' service-connected 
injuries are documented?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Coffman. Since 2009, the Army has separated at least 22,000 
combat veterans who had been diagnosed with mental health disabilities 
or traumatic brain injury for misconduct. These discharges have 
significant impact on those veterans' eligibility for benefits and 
services from the Department of Veterans Affairs, including mental 
health services. The Department has instituted several changes to its 
discharge process to prevent the improper separation of service members 
suffering from PTSD, but I believe many are still falling through the 
cracks, and thousands more were discharged prior to the Department's 
changes. I also believe that this situation applies to all of the armed 
services, not just to the Army. From the DOD perspective, do you 
believe that the discharge review boards should be more friendly to 
veterans appealing their discharge on account of PTSD diagnosis? And if 
so, do you have any specific proposals?
    General Dunford. The Department is committed to ensuring that 
Service members who experience mental health issues are accurately 
diagnosed, receive the treatment, benefits, and follow-on care and 
benefits commensurate with their characterization of service, and are 
not unfairly stigmatized or inappropriately subjected to negative 
administrative or punitive action. The Military Department Review 
Boards, including the Discharge Review Boards, have robust procedures 
and responsive personnel in place to ensure full and fair reviews of 
requests from members and former members of the Armed Forces to change 
the characterization of their discharges or seek other relief based 
upon a diagnosed mental health condition.
    The law requires the Military Departments to conduct a health 
assessment sufficient to evaluate the health of all members at the time 
of separation. This assessment determines if existing medical 
conditions were incurred during active duty service, provides a 
baseline for future care, completes a member's military record, and 
provides a final opportunity to document health concerns, exposures, or 
risk factors associated with active duty service, prior to separation. 
It is DOD policy that the Service Review Boards considering post-
traumatic stress or traumatic brain injury cases include a physician, 
clinical psychologist or psychiatrist. Each Military Department has 
assigned at least one physician on a permanent, full-time basis to the 
Military Department Review Boards Agency, usually the Offices of the 
Surgeons General, where such expertise is resident. These assigned 
physicians provide each Board with the expertise and guidance necessary 
to assess any medical issues, to include mental health-related matters, 
in their deliberations over requests for records corrections.
    Mr. Coffman. Currently, veterans of the National Guard and Reserve 
forces are disproportionally denied on their VA claims for service-
connected disabilities. I believe a major reason for this is the fact 
that the services can decline to provide them separation physicals, 
which are actually mandatory for Active Duty members. Do you believe 
that end-of-service physicals should be permitted for National Guard 
members and reservists of all branches of service if they'd like a 
physical to document any service-related injuries or disabilities? How 
do you ensure that Guard and Reserve members' service-connected 
injuries are documented?
    General Dunford. Current Department of Defense policy requires all 
Reserve Component (RC) members serving 180 days or more on active duty 
or more than 30 days in support of a contingency operation to have a 
Separation Health Physical Exam (SHPE). All Services and the National 
Guard Bureau are fully committed to meeting this requirement to ensure 
any service related injury or disability is properly identified, 
evaluated, and documented prior to separation.
    Mr. Coffman. Since 2009, the Army has separated at least 22,000 
combat veterans who had been diagnosed with mental health disabilities 
or traumatic brain injury for misconduct. These discharges have 
significant impact on those veterans' eligibility for benefits and 
services from the Department of Veterans Affairs, including mental 
health services. The Department has instituted several changes to its 
discharge process to prevent the improper separation of service members 
suffering from PTSD, but I believe many are still falling through the 
cracks, and thousands more were discharged prior to the Department's 
changes. I also believe that this situation applies to all of the armed 
services, not just to the Army. From the DOD perspective, do you 
believe that the discharge review boards should be more friendly to 
veterans appealing their discharge on account of PTSD diagnosis? And if 
so, do you have any specific proposals?
    Mr. McCord. [No answer was available at the time of printing.]
    Mr. Coffman. Currently, veterans of the National Guard and Reserve 
forces are disproportionally denied on their VA claims for service-
connected disabilities. I believe a major reason for this is the fact 
that the services can decline to provide them separation physicals, 
which are actually mandatory for Active Duty members. Do you believe 
that end-of-service physicals should be permitted for National Guard 
members and reservists of all branches of service if they'd like a 
physical to document any service-related injuries or disabilities? How 
do you ensure that Guard and Reserve members' service-connected 
injuries are documented?
    Mr. McCord. [No answer was available at the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. During the hearing, General Dunford indicated there 
were still interagency barriers that limit the effectiveness of the 
DOD's transregional terrorism plan. Please provide a detailed list, 
along with an accompanying explanation of each, of what those barriers 
are, indicating where appropriate, what, if any statutory impediments 
are limiting your efforts and where congressional action is required.
    Secretary Carter. [No answer was available at the time of 
printing.]
    Ms. Duckworth. During the hearing, General Dunford indicated there 
were still interagency barriers that limit the effectiveness of the 
DOD's transregional terrorism plan. Please provide a detailed list, 
along with an accompanying explanation of each, of what those barriers 
are, indicating where appropriate, what, if any statutory impediments 
are limiting your efforts and where congressional action is required.
    General Dunford. We are working with Interagency and international 
partners to implement a comprehensive approach designed to counter 
threat networks operating across our various Geographic Combatant 
Command boundaries. The Joint Force lacks sufficiently flexible 
transregional fiscal authorities or appropriation language that would 
allow for streamlined movement of resources between Combatant Command 
regional boundaries.
    While we have not identified specific statutory impediments that 
are limiting our current approach, we are undertaking a holistic look 
at this issue and will be prepared to seek Congressional action as 
appropriate in the future.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. TAKAI
    Mr. Takai. In regard to the ``pivot to Asia'' strategy--the 
Department has been on the Hill to do notifications for the Maritime 
Security Initiative money in FY16. You are currently looking to execute 
funding mostly for the Philippines and some for Vietnam, Malaysia, and 
Indonesia. I have heard big ideas about the foreign military sales and 
financing being provided under a rubric of ``sense, share, and 
contribute.'' Please provide information about FY16 funding, and what 
you plan on doing with the $60 million FY17 request?
    Secretary Carter. [No answer was available at the time of 
printing.]
    Mr. Takai. North Korea is developing its nuclear weapons and long-
range ballistic missile programs in defiance of U.N. Security Council 
resolutions. Alarmingly, this year North Korea conducted its fourth 
nuclear test and last month, launched a satellite into orbit using 
long-range ballistic missile technology. While U.N. resolutions 
requiring member states to inspect all cargo in and out of North Korea 
for illicit goods and arms are helpful, and I applaud the 
administration for stepping up its sanctions policy to freeze North 
Korean government property in America, and ban U.S. exports to, or 
investment in, North Korea, I have to ask this question. If the U.S. is 
so concerned that North Korea may develop the ability to place a bomb 
on a long-range ballistic missile that could reach the U.S. West Coast, 
WHEN are we going to convert the Aegis missile defense test site in 
Hawaii into a combat-ready facility to help protect the U.S. mainland?
    Secretary Carter. [No answer was available at the time of 
printing.]

                                  [all]
</pre></body></html>
